<html>
<title> - IMPROVING DROUGHT MONITORING AND FORECASTING: H.R. 5136, THE NATIONAL INTEGRATED DROUGHT INFORMATION SYSTEM ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      IMPROVING DROUGHT MONITORING
                      AND FORECASTING: H.R. 5136,
                    THE NATIONAL INTEGRATED DROUGHT
                     INFORMATION SYSTEM ACT OF 2006

====================================================================

                                HEARING 

                               BEFORE THE 

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, 
                             AND STANDARDS

                          COMMITTEE ON SCIENCE 
                        HOUSE OF REPRESENTATIVES 

                       ONE HUNDRED NINTH CONGRESS 

                             SECOND SESSION 

                               __________ 

                              MAY 4, 2006 

                               __________ 

                           Serial No. 109-47 

                               __________ 

            Printed for the use of the Committee on Science 


     Available via the World Wide Web: http://www.house.gov/science 




                    U.S. GOVERNMENT PRINTING OFFICE 

27-256 PDF                  WASHINGTON : 2006 
------------------------------------------------------------------ 
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001 
                                 ______ 


                          COMMITTEE ON SCIENCE 

             HON. SHERWOOD L. BOEHLERT, New York, Chairman 
RALPH M. HALL, Texas                 BART GORDON, Tennessee 
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois 
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas 
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California 
KEN CALVERT, California              DARLENE HOOLEY, Oregon 
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado 
VERNON J. EHLERS, Michigan           DAVID WU, Oregon 
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California 
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina 
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee 
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois 
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas 
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California 
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington 
JO BONNER, Alabama                   JIM MATHESON, Utah 
TOM FEENEY, Florida                  JIM COSTA, California 
RANDY NEUGEBAUER, Texas              AL GREEN, Texas 
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana 
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas 
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California 
JOHN J.H. ``JOE'' SCHWARZ, Michigan 
MICHAEL T. MCCAUL, Texas 
MARIO DIAZ-BALART, Florida 
                                 ------                             

         Subcommittee on Environment, Technology, and Standards 

                  VERNON J. EHLERS, Michigan, Chairman 
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon 
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina 
WAYNE T. GILCHREST, Maryland         MARK UDALL, Colorado 
TIMOTHY V. JOHNSON, Illinois         LINCOLN DAVIS, Tennessee 
DAVE G. REICHERT, Washington         BRIAN BAIRD, Washington 
JOHN J.H. ``JOE'' SCHWARZ, Michigan  JIM MATHESON, Utah 
MARIO DIAZ-BALART, Florida  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee 
                AMY CARROLL Subcommittee Staff Director 
            MIKE QUEAR Democratic Professional Staff Member 
            JEAN FRUCI Democratic Professional Staff Member 
                 OLWEN HUXLEY Professional Staff Member 
                MARTY SPITZER Professional Staff Member 
               SUSANNAH FOSTER Professional Staff Member 
                 CHAD ENGLISH Professional Staff Member 
                  JAMIE BROWN Majority Staff Assistant 


                            C O N T E N T S 

                              May 4, 2006 

                                                                 Page 
Hearing Charter..................................................    2 

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10 
    Written Statement............................................    11 

Statement by Representative David Wu, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    12 

Statement by Representative Ralph M. Hall, Member, Committee on 
  Science, U.S. House of Representatives.........................    11 

Statement by Representative Frank D. Lucas, Member, Committee on 
  Science, U.S. House of Representatives.........................    15 

Statement by Representative Mark Udall, Member, Subcommittee on 
  Environment, Technology, and Standards, Committee on Science, 
  U.S. House of Representatives..................................    13 
    Written Statement............................................    14 

Prepared Statement by Representative Jim Matheson, Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    15 

                               Witnesses:

Dr. Chester J. Koblinsky, Director, Climate Program Office, 
  Office of Oceanic and Atmospheric Research, National Oceanic 
  and Atmospheric Administration, U.S. Department of Commerce
    Oral Statement...............................................    17 
    Written Statement............................................    19 

Mr. Duane A. Smith, Vice Chair, Western States Water Council; 
  Representative, Western Governors' Association; Executive 
  Director, Oklahoma Water Resources Board
    Oral Statement...............................................    28 
    Written Statement............................................    30 
    Biography....................................................    34 

Mr. Kenneth Dierschke, President, Texas Farm Bureau
    Oral Statement...............................................    34 
    Written Statement............................................    36 
    Biography....................................................    37 
    Financial Disclosure.........................................    39 

Mr. Marc D. Waage, Manager, Raw Water Supply, Denver Water, 
  Denver, Colorado
    Oral Statement...............................................    40 
    Written Statement............................................    41 
    Biography....................................................    46 

Dr. Donald A. Wilhite, Director, National Drought Mitigation 
  Center, University of Nebraska
    Oral Statement...............................................    47 
    Written Statement............................................    48 
    Biography....................................................    66 

Discussion
  Implementation and the Future..................................    66 
  Scope..........................................................    68 
  Decision-making................................................    69 
  Scope (cont.)..................................................    70 
  Decision-making (cont.)........................................    71 
  Scope (cont.)..................................................    72 
  Technology.....................................................    73 
  Implementation and the Future (cont.)..........................    75 
  Technology (cont.).............................................    77 


 IMPROVING DROUGHT MONITORING AND FORECASTING: H.R. 5136, THE NATIONAL 
           INTEGRATED DROUGHT INFORMATION SYSTEM ACT OF 2006 

                              ----------                              


                         THURSDAY, MAY 4, 2006 

                  House of Representatives, 
      Subcommittee on Environment, Technology, and 
                                         Standards, 
                                      Committee on Science, 
                                                    Washington, DC. 

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding. 
                            hearing charter 

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS 

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      Improving Drought Monitoring

                      and Forecasting: H.R. 5136,

                    The National Integrated Drought

                     Information System Act of 2006

                         thursday, may 4, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On May 4, 2006 at 10:00 a.m., the Subcommittee on Environment, 
Technology, and Standards of the House Committee on Science will hold a 
hearing to better understand ways to forecast and predict occurrences 
of drought, which can have profound economic, social, and environmental 
impacts, and to receive comments on H.R. 5136, the National Integrated 
Drought Information System Act of 2006 (see Appendix I for a section-
by-section summary of H.R. 5136).
    The Committee plans to explore these overarching questions:

        1.  How does the Federal Government currently forecast and 
        monitor drought, and what are the major strengths and 
        weaknesses of these systems?

        2.  What is the proposed National Integrated Drought 
        Information System (NIDIS), and how would it improve the 
        Federal Government's drought monitoring and forecast efforts?

        3.  What specific actions are needed to implement NIDIS, 
        including data management, monitoring, and research, and how 
        will H.R. 5136 promote those actions?

Witnesses:

Dr. Chester Koblinsky, Director, Climate Program Office, National 
Oceanic and Atmospheric Administration.

Mr. Duane Smith, Vice Chair, Western States Water Council; 
Representative, Western Governors' Association.

Mr. Kenneth Dierschke, President, Texas Farm Bureau.

Mr. Marc D. Waage, P.E., Manager, Raw Water Supply, Denver Water, 
Denver, Colorado.

Dr. Donald A. Wilhite, Director, National Drought Mitigation Center, 
University of Nebraska.

Background:

    The National Oceanic and Atmospheric Administration (NOAA) 
estimates that drought results in total economic costs in the U.S. of 
$6 to $8 billion each year from such impacts as crop loss; premature 
livestock sales; degraded water quality; decreased tourism revenue from 
limited rafting, boating, fishing, golfing and skiing; decreased energy 
generation capacity; increased ground-water pumping costs; and reduced 
barge tonnage for commercial shipping. The total cost of particularly 
severe droughts, including economic impact and government aid to 
affected communities, has exceeded $60 billion in the past. While 
drought is not sudden or violent, it can be among the most devastating 
of natural disasters, and it affects all parts of the country. In every 
one of the hundred years ending in 1995, some part of the United States 
has experienced a severe or extreme drought.
    Experts in drought mitigation contend that substantial losses due 
to drought are not inevitable. With adequate prior knowledge of a 
coming drought, the extent and severity of many impacts can be 
substantially mitigated. For example, urban water managers can change 
reservoir release schedules and impose pre-drought water restrictions; 
agricultural users can alter crop choice and timing of planting to 
minimize water needs and potential crop loss, including changing crop 
rotations and use of strategic irrigation techniques; forest managers 
can alter fire suppression and mitigation plans, including pre-
positioning of assets and people, and can heighten public awareness of 
wildfire prevention needs; waterway managers may be able to plan water 
releases and dredging activities to maintain open waterways; managers 
of animal stocks can budget for increased feed costs and can sell 
excess stock when prices are more favorable; energy providers can 
manage to reservoir levels and fuel supplies to minimize cost increases 
due to reduced hydro-power capacity.
    Substantial investments by Federal, State and local governments 
have targeted research on and monitoring of droughts. However, these 
efforts have generally been unconnected and uncoordinated. Many 
researchers and water users believe that tying together and building 
upon current drought research and monitoring efforts will result in 
significant improvements in forecasting of, planning for, and 
mitigation of drought and its impacts.
NOAA Drought Forecasting and Research Funding History
    NOAA spends approximately $10 million annually on drought research, 
monitoring, and forecasting. However, this amount does not reflect 
NOAA's indirect investment in drought which includes expenditures on 
satellites and other tools that provide data and services that support 
a broad range of climate research, monitoring, and forecasting in 
addition to drought. Quantifying the total contribution to drought 
monitoring and forecasting by NOAA and other federal agencies is 
impractical (and virtually impossible) because of the many programs and 
data streams that contribute to, or can be utilized in, these efforts.
    Before Fiscal Year 2007 (FY07), NOAA's budget did not include a 
specific request for drought research, monitoring, and mitigation 
efforts. Beginning in FY07, NOAA is requesting $7.8 million directly in 
support of the National Integrated Drought Information System (NIDIS). 
Of this amount, $4.0 million will sponsor research and research-to-
operations transition projects and $3.8 million will support monitoring 
through the Climate Reference Network and improvements in regional 
observation systems required by NIDIS.
Development of a National Integrated Drought Information System
    Experts believe that recent advances in statistical analysis could 
yield increased objectivity, accuracy and reliability in future drought 
forecasts. To facilitate development of a more comprehensive, real-time 
drought information and forecasting system, NOAA collaborated closely 
with other federal agencies, the Western Governors' Association (WGA) 
and other stakeholders to identify the drought product needs of State 
and local users and developed a plan for a National Integrated Drought 
Information System (NIDIS). The key goals of NIDIS are:

        <bullet>  to expand monitoring and data collection systems to 
        include coordinated, comprehensive coverage of key indicators 
        such as soil moisture and ground water;

        <bullet>  to implement an integrated data collection and 
        dissemination system; and

        <bullet>  to develop effective and useful tools to support 
        analysis and decision-making at all levels and geographic 
        scales.

    Coordination of monitoring efforts across agencies is expected to 
lead to more efficient and effective data collection, decreased 
duplication of effort, and more even and complete monitoring of 
critical regions. Expanded monitoring will include collection of soil 
moisture data (soil moisture is currently modeled but only sparsely 
measured) and more comprehensive ground water measurements.
    Also as part of NIDIS, NOAA will develop a web portal as a single 
point of information for users of drought related information and 
tools, eliminating the need for water managers to collect data from 
multiple sites, in multiple formats. Part of the NIDIS plan includes 
development of new and higher-resolution tools to allow users to more 
closely examine the drought risk in their state, watershed, and county. 
NOAA also expects to significantly increase drought forecasting skill 
through an initiative to statistically re-evaluate drought-related data 
from the past 100 years. This effort is expected to yield a better 
understanding of the conditions that lead to drought in all regions of 
the country, providing information that NOAA scientists can use to 
improve drought prediction models. NOAA projects that it will take five 
to six years to fully implement NIDIS with gradual improvement in 
NOAA's drought monitoring and forecasting capabilities occurring 
throughout the implementation process.
Weaknesses in Current Federal Drought Monitoring and Forecasts
    Water managers, water users, and drought researchers have 
identified four primary weaknesses in the current drought monitoring 
and forecast system. First, no mechanism currently exists to 
comprehensively assess the extent, severity, or impacts of drought 
throughout the United States. Partly due to the lack of a standard 
definition of drought, and partly due to the existence of many 
disparate monitoring efforts, local governments each use different sets 
of indicators and triggers to determine when a drought occurs. Equally 
important, there is no comprehensive effort across all levels of 
government to measure the impacts of drought, leaving decision-makers 
in the dark as to the extent and severity of the agricultural, 
economic, and social consequences of drought.
    Second, not all of the data collected by federal programs are 
delivered in a timely fashion, and in compatible formats. Some of the 
data come from cooperative programs that require periodic collection 
and delivery of the data, whereas other data are collected in a 
continuous manner. Furthermore, different federal programs use 
different data formats, making the combination of data from multiple 
sources difficult.
    Third, current drought monitoring and forecast products--the U.S. 
Drought Monitor map and U.S. Seasonal Drought Outlook map, both 
described below--provide general guidance on current and future drought 
risk, but are updated infrequently and do not provide fine enough 
detail to meet the operational needs of most water managers and users. 
While water managers can use these tools to communicate the state and 
trends of drought, the maps do not distinguish drought conditions on an 
individual reservoir or watershed level, which is the level at which 
water managers need to make operational decisions.
    Finally, there is no single coordinating agency that operates a 
clearinghouse or a prediction model incorporating the drought-related 
data and tools produced by the many federal, State, and local agencies 
that work on drought management and collect drought-related 
information. Current drought forecasts provided by the Federal 
Government involve manually collecting data and products from the many 
federal, State, tribal and local sources, subjectively weighing the 
value of the many forecast parameters and indices that may influence 
drought conditions, and manually drawing maps to represent ``best 
estimates'' of drought risk throughout the country.
Description of Current National Drought Monitoring and Forecast 
        Products
    Beginning in 1999 and 2000, the Federal Government began providing 
two major drought products as low-resolution national maps: the Drought 
Monitor, and the U.S. Seasonal Drought Outlook. Examples of these 
products are in Appendix II.
    The Drought Monitor map (updated weekly at http://
www.drought.unl.edu/dm/monitor.html) is an assessment product produced 
after consultation among scientists at NOAA, USDA, and the University 
of Nebraska. Published weekly since late 1999, it provides an overview 
of national-scale trends in drought extent and severity that attempts 
to synthesize many sources of drought-related information.
    In contrast to the Drought Monitor which assess current conditions, 
the U.S. Seasonal Drought Outlook is a forecast that has been produced 
since March 2000 by NOAA's National Climate Prediction Center. This 
monthly map and accompanying information provide a seasonal-scale 
prediction of general, large-scale drought trends and can be found at: 
http://www.cpc.noaa.gov/products/expert<INF>-</INF>assessment/
seasonal<INF>-</INF>drought.html. More details of the Drought Monitor 
and Seasonal Drought Outlook, and the data and indices on which they 
are based, are in Appendix III.
    Water managers use the Drought Monitor and Seasonal Drought Outlook 
to communicate with decision-makers and the public. For example, water 
management authorities in the Denver area use these maps to help city 
officials and the public understand the need for water restrictions in 
municipal areas.
H.R. 5136, the National Integrated Drought Information System Act of 
        2006
    H.R. 5136 was introduced on April 6, 2006 by Mr. Hall and Mr. Mark 
Udall. The bill establishes NIDIS and designates NOAA as the lead 
agency. It specifies that NOAA will coordinate with local, State, and 
federal entities to create a comprehensive network of drought 
information and provide decision-makers with the tools to manage water 
resources. A section-by-section summary of H.R.5136 is in Appendix I.
    At a hearing by the Senate Committee on Commerce, Science, and 
Transportation on April 27, witnesses and Members expressed support for 
H.R. 5136, including an endorsement by NOAA of the authorized spending 
levels.

Witness Questions:

    The witnesses were asked to address the following questions in 
their testimony.
Dr. Chester Koblinsky, Director, Climate Program Office, National 
        Oceanic and Atmospheric Administration.

        1.  Please describe the drought monitoring and forecasting 
        information currently provided by NOAA and other federal 
        agencies.

        2.  What are the major components of NIDIS and what specific 
        actions are needed to fully implement NIDIS? In particular, 
        what is the timing of these actions and the budget needs to 
        implement the program?

        3.  How would the proposed National Integrated Drought 
        Information System (NIDIS) improve the quality and usefulness 
        of the drought monitoring and forecasting information provided 
        by the Federal Government?

        4.  Please provide specific comments on H.R. 5136, the National 
        Integrated Drought Information System Act of 2006.

Mr. Duane Smith, Vice Chair, Western States Water Council; 
        Representative, Western Governors' Association.

        1.  What are the major strengths and weaknesses of drought 
        monitoring and forecasting information currently provided by 
        the National Oceanic and Atmospheric Administration and other 
        federal agencies? How do states use this information to inform 
        water resource management decisions?

        2.  How would the proposed National Integrated Drought 
        Information System (NIDIS) improve the quality and usefulness 
        of the drought monitoring and forecasting information provided 
        by the Federal Government?

        3.  Please provide specific comments on H.R. 5136, the National 
        Integrated Drought Information System Act of 2006.

Mr. Kenneth Dierschke, President, Texas Farm Bureau.

        1.  What are the major strengths and weaknesses of drought 
        monitoring and forecasting information currently provided by 
        the National Oceanic and Atmospheric Administration and other 
        federal agencies? How does the Texas agricultural community use 
        this information?

        2.  How would the proposed National Integrated Drought 
        Information System (NIDIS) improve the quality and usefulness 
        of the drought monitoring and forecasting information provided 
        by the Federal Government?

        3.  Please provide specific comments on H.R. 5136, the National 
        Integrated Drought Information System Act of 2006.

Mr. Marc D. Waage, P.E., Manager, Raw Water Supply, Denver Water, 
        Denver, Colorado.

        1.  What are the major strengths and weaknesses of drought 
        monitoring and forecasting information currently provided by 
        the National Oceanic and Atmospheric Administration and other 
        federal agencies? How do you use this information to inform 
        water resource management decisions?

        2.  How would the proposed National Integrated Drought 
        Information System (NIDIS) improve the quality and usefulness 
        of the drought monitoring and forecasting information provided 
        by the Federal Government?

        3.  Please provide specific comments on H.R. 5136, the National 
        Integrated Drought Information System Act of 2006.

Dr. Donald A. Wilhite, Director, National Drought Mitigation Center, 
        University of Nebraska.

        1.  Please describe the drought monitoring and forecasting 
        information currently provided by NOAA, other federal agencies 
        and the National Drought Mitigation Center. Also, please 
        describe the functions of the National Drought Mitigation 
        Center and how it differs from the proposed National Integrated 
        Drought Information System (NIDIS).

        2.  How would the NIDIS improve the quality and usefulness of 
        the drought monitoring and forecasting information provided by 
        the Federal Government?

        3.  What are the major data management, monitoring and research 
        components of NIDIS and what specific actions are needed to 
        fully implement those components?

        4.  Please provide specific comments on H.R. 5136, the National 
        Integrated Drought Information System Act of 2006.

Appendix I:

   Section-by-Section Summary of H.R. 5136, the National Integrated 
                     Drought Information System Act

Section 1. Short Title.

    National Integrated Drought Information System Act of 2006.

Section 2. Definitions.

    Defines two terms: 1) ``drought'' means a deficiency in 
precipitation that leads to a deficiency in surface or subsurface water 
supplies and that causes (or may cause) substantial economic or social 
impacts or physical damage or injury to people, property, or the 
environment; 2) ``Under Secretary'' means the Under Secretary of 
Commerce for Oceans and Atmosphere.

Section 3. NIDIS Program.

    Directs the Under Secretary to establish the National Integrated 
Drought Information System (NIDIS) through the National Weather Service 
and other appropriate programs in NOAA.
    Specifies that the system shall provide an effective drought early 
warning system and shall coordinate and integrate federal research in 
support of the system. Specifies that NIDIS: be a comprehensive system 
that collects and integrates information on drought for usable, 
reliable, and timely drought assessments and forecasts; communicate 
forecasts, conditions and impacts to the public and private sectors, 
and decision-makers at all levels of government in order to aid timely, 
informed decisions leading to reduced impacts and costs; include timely 
and real-time information and products reflecting local, regional, and 
State differences in drought conditions.
    Directs the Under Secretary to consult with relevant federal, 
regional, State, tribal and local agencies, institutions, and the 
private sector in the development of NIDIS. Requires each federal 
agency to cooperate with the Under Secretary as appropriate in carrying 
out the Act.

Section 4. Authorization of Appropriations.

    Authorizes $12 million for FY07, $14 million for FY08, $16 million 
for each of FY09 and FY10, and $18 million for each of FY11 and FY12.

Appendix II:

           Drought Monitor and Seasonal Drought Forecast Maps
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix III:

                 Definitions and Assessments of Drought

    The American Meteorological Society's Glossary of Meteorology 
(1959) defines drought as ``a period of abnormally dry weather 
sufficiently prolonged for the lack of water to cause serious 
hydrologic imbalance in the affected area.'' In lay terms, a drought is 
an abnormally long period of dry weather that causes serious problems 
such as crop damage and/or water supply shortages. As stated by NOAA, 
drought can be defined in one of four ways:

        (1)  Meteorological: refers to a situation when precipitation 
        is below normal levels for that region.

        (2)  Agricultural: refers to a situation where the amount of 
        moisture in the soil no longer meets the needs of a particular 
        crop.

        (3)  Hydrological: refers to a situation when surface and 
        subsurface water supplies are below normal.

        (4)  Socioeconomic: refers to the situation that occurs when 
        physical water shortages begin to affect people.

    The U.S. has engaged in quantitative monitoring of drought for over 
40 years. The Palmer Drought Severity Index (PSDI), developed in 1965, 
was the first attempt to comprehensively quantify drought in the U.S. 
The most widely used of the drought indices, it incorporates 
temperature and rainfall information and is considered effective at 
monitoring the development of long-term droughts in regions that do not 
rely on snowpack for water. However, the PSDI is severely limited in 
its ability to identify fast-developing events.
    In order to fill the need for monitoring fast-developing 
agricultural drought, experts developed the Crop Moisture Index (CMI) 
in the late 1960s. The CMI places greater emphasis on recent 
measurements and is therefore considered much more effective at 
monitoring fast-developing droughts but is considered ineffective in 
the context of long-term droughts because it only incorporates short-
term water availability information.
    In the 1980s and 1990s, new indices were developed to help monitor 
drought in individual basins (the Surface Water Supply Index) and to 
help track the impact of precipitation on the different components of 
the hydrological cycle (the Standardized Precipitation Index). Each of 
these indices must be calculated for different regions and conditions, 
and no single index meets the needs of all users.
    Assessment of drought draws on a variety of environmental data, 
some of which are collected explicitly to monitor drought, and some of 
which are collected for multiple needs. Drought-related monitoring has 
grown to include numerous federal agencies: the U.S. Department of 
Agriculture (USDA) manages snow pack information; the Army Corps of 
Engineers and U.S. Bureau of Reclamation manage reservoir storage data; 
NOAA manages hydroclimatic data (i.e., precipitation and other weather-
related data, including satellite data); the U.S. Geological Survey 
(USGS) manages ground water and streamflow information; and NOAA and 
the Environmental Protection Agency work with states and tribes to 
manage various water quality programs.
    All of this information is used to develop the U.S. Seasonal 
Drought Outlook and the weekly Drought Monitor described in the main 
text of this charter. The Drought Monitor uses these categories to 
described drought conditions:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Good morning. This hearing will come to 
order.
    I would like to welcome everyone today to today's hearing, 
entitled: ``Improving Drought Monitoring and Forecasting,'' 
encompassed in bill H.R. 5136, the National Integrated Drought 
Information System Act of 2006.
    We are pleased to have you here, and pleased to have our 
panel of witnesses here on this hearing on improving drought 
monitoring and forecasting. I am pleased that we have such an 
excellent panel today to help us understand drought and its 
impacts on society, and most importantly, what we can do to 
better prepare for it and reduce these impacts.
    I suspect most Americans are not aware of how serious the 
drought problem can be in this country. We tend to hear about 
drought in other countries, particularly Third World countries, 
become very concerned about it, but often neglect when it 
occurs in our own country, because it is usually a smaller 
area. But drought is a pernicious disaster. It can creep up on 
you in the form of pleasantly cloudless days, which most people 
love, but once it has arrived, it can destroy livelihoods, 
damage valuable ecosystems, and even threaten human health.
    NOAA, the National Oceanic and Atmospheric Administration, 
estimates that we lose around $7 billion each year to this 
slowly emergent but devastating natural disaster. Since we 
cannot manufacture more water, our best defense against this 
creeping threat is knowledge and water conservation. We must 
provide clear and accurate warnings of coming droughts, so that 
we can seek appropriate solutions, and take preventive actions, 
such as increase water conservation, and better use of water.
    Drought information should include enough details to make 
it useful for the people who work so hard to manage water 
resources, and minimize the effects of drought on our daily 
lives. The National Integrated Drought Information System Act 
seeks to provide just that kind of information. I am glad that 
my colleagues Ralph Hall and Mark Udall have brought this issue 
to our attention with their bill. I am pleased to welcome Mr. 
Hall to join our subcommittee today, and will recognize him in 
a moment for a brief statement.
    It may be surprising to find out that someone who lives in 
the middle of the Great Lakes, in a state that has 11,000 small 
lakes, and borders four of the five Great Lakes, is concerned 
about drought, but I am very concerned about it. I am also very 
pleased that my home state of Michigan has taken major steps in 
water conservation. It is perhaps because we have so much of 
it, and value it so much, that we are concerned about this 
issue. Clearly, other States would love to have our water, and 
it is surprising to some to realize that we have droughts in 
Michigan as well. Certainly not as serious as those in the 
Southwest, but I was struck recently by a friend of mine who 
visited the Southwest, and came back amazed that we have better 
water conservation programs in effect in Michigan than they had 
in this arid Southwestern state that she visited.
    So, we have much to learn from each other in this matter, 
and I appreciate the efforts put forward by my colleagues Ralph 
Hall and Mark Udall in presenting this issue to us, and coming 
forward with this bill.
    At this time, I am pleased to recognize Mr. Hall, to 
welcome him to our subcommittee, and recognize him for an 
opening statement.
    [The prepared statement of Chairman Ehlers follows:]
            Prepared Statement of Chairman Vernon J. Ehlers
    Good morning. Welcome to today's hearing on improving drought 
monitoring and forecasting. We have an excellent panel today to help us 
better understand drought and its impacts on society--and most 
importantly--what we can do to better prepare for and reduce those 
impacts. Drought is a pernicious disaster; it can creep up on you in 
the form of pleasantly cloudless days, but once it has arrived it can 
destroy livelihoods, damage valuable ecosystems, and even threaten 
human health. NOAA estimates that we lose around seven billion dollars 
each year to this slowly emergent, but devastating natural disaster. 
Since we cannot manufacture more water, our best defense against this 
creeping threat is knowledge. We must provide clear and accurate 
warnings of coming droughts so that we can seek appropriate solutions 
and take preventive actions, such as increased water conservation. 
Drought information should include enough details to make it useful to 
the people who work so hard to manage water resources and minimize the 
effects of drought on our daily lives. The National Integrated Drought 
Information System Act seeks to provide just that kind of information.
    I am glad that my colleagues, Ralph Hall and Mark Udall, have 
brought this issue to our attention with their bill. I am pleased to 
welcome Mr. Hall to join our subcommittee today and recognize him for a 
brief statement.

    Mr. Hall. Thank you, Mr. Chairman, and honored to be here, 
honored to be on a bill with Mark Udall.
    I thank you and the Committee for holding this hearing on a 
very important topic, and I thank you men for your appearance 
here. I know it takes time and effort and background and 
knowledge, and then your day to come here to testify. You have 
a good Chairman, a knowledgeable Chairman. Our Chairman is the 
kind of fellow that I always admired but didn't like much in 
college, because he ruined the curve for guys like me. He is 
one of the better educated, and one of the more brilliant 
Members of Congress, and I am honored to be associated with 
him, and with Mark Udall.
    Like so many areas of the country, my district has been 
tormented with drought, so much that USDA has declared every 
county in my district as a primary disaster area. Droughts have 
a devastating effect on our local, State, and national 
economies. The National Oceanic and Atmospheric Administration 
estimates that it results in probably $6 to $8 billion each 
year to the economy, and it is clear that we need to do a 
better job preparing and mitigating this disaster.
    The bill that Mr. Udall and I have introduced, H.R. 5136, 
will coordinate drought efforts between local, State, and 
federal entities, and provide decision-makers with the best 
tools to manage our natural resources. It addresses, actually, 
Mr. Chairman, a fundamental problem that our nation faces 
relating to drought monitoring. It helps coordinate what are 
now ad hoc efforts, and better disseminate useful information 
to the people who need it the most. And I am pleased that this 
bill is supported by the Western Governors Association, the 
Texas Farm Bureau, and the American Meteorological Society.
    The bill designates NOAA, as the Chairman has said, as a 
lead agency to devise this integrated system. It directs NOAA 
to build a National Drought Monitoring and Forecasting System, 
create a Drought Early Warning System, provide an interactive 
drought information delivery system, and designate mechanisms 
for improved interaction with the public. The bill will 
hopefully improve our analysis of conditions, provide us with 
more accurate seasonal forecasts, and equip us with a better 
understanding of the climate interactions that produce 
droughts. While we can't stop nature, we can do a better job of 
predicting, monitoring, and mitigating this devastating 
problem.
    And I would like to welcome the panel of experts today, and 
I look forward to hearing your perspectives on that, and how we 
can better address the long-term problem. I would like to 
particularly welcome my friend Kenneth Dierschke, President of 
Texas Farm Bureau, and Steve Pringle, who is the hardworking 
long time Legislative Director and Executive Advisor for the 
Texas Farm Bureau. As a cotton farmer from San Angelo, Texas, I 
think Ken knows full well the effects of how drought affects 
our community and our economy, and he knows why we better need 
resources to address this problem.
    One day, not in my lifetime or maybe in your lifetime, but 
I think we will have huge areas that consume the runaway water 
that wastes and goes on down to the sea, and use them at a time 
when they would waste into the river, and go, and have them for 
a time when we need them. I think that is far off, but I think 
we need to be thinking about that. They can be huge, like a 
thousand acres, in strategic places, to save water and protect 
water, because today, I am told by these kids that go around 
with a computer in one hand and a bottle of water in the other 
that they pay more for that bottle of water than you would for 
that much gasoline, so it is a pretty important thing today.
    Mr. Chairman, thank you for this, and thank you for opening 
your Committee to my testimony. I yield back.
    Chairman Ehlers. I am certainly pleased to welcome you and 
thank you for introducing this bill. I also appreciate your 
comment about intelligence, but as I have always said, Solomon 
had it right in the Bible. Wisdom is far more important than 
intelligence, and so, I always aspire to wisdom, and I must say 
you have considerably more than I have.
    I am also pleased to recognize the other sponsor of the 
bill, Congressman Mark Udall from Colorado, and give him the 
opportunity for an opening statement.
    Mr. Udall. Mr. Chairman, thank you. If I might, I would 
yield to the Ranking Member, who is----
    Chairman Ehlers. My apologies. I didn't see the Ranking 
Member come in. I am pleased to recognize Mr. Wu for an opening 
statement.
    Mr. Wu. Thank you very much, Mr. Chairman. We are holding a 
very important hearing today on Mr. Udall and Mr. Hall's bill.
    Drought is a natural hazard that can be very, very costly, 
as costly as tornadoes and hurricanes, earthquakes, tsunamis. 
However, unlike these other events, droughts don't knock down 
buildings. They don't roar through. It is a slow process, an 
insidious process, frequently with no clear beginning point, 
and no clear endpoint. Now, we do have serious droughts in the 
State of Oregon, but like I say, on my side of the Cascades, 
the drought starts the third day after the rain stops, so they 
do have a beginning point in our state.
    As this country has repeatedly seen, drought's effects on 
the economy are just as severe as any other natural disaster, 
costing the U.S. economy from $6 to $8 billion, and in 1988, 
the costliest U.S. drought of the last 40 years, caused more 
than $62 billion in economic losses. We can improve on drought 
prediction, preparation, mitigation, and response.
    Several of the Members of this committee represent areas of 
the country that frequently struggle with the effects of multi-
year drought, notably my colleague, Mr. Udall from Colorado, 
and Mr. Matheson from Utah. At this time, I would like to yield 
my time to Mr. Udall for a statement about his legislation.
    Mr. Udall. Good morning. I thank the Ranking Member. I 
thank the chairman for calling this important hearing, and of 
course, it is always a pleasure and honor to sponsor a bill 
with Mr. Hall, who does have wisdom, as the Chairman pointed 
out.
    I am looking forward to hearing from each of you today, and 
I would echo the comments of everyone on the panel. We 
appreciate your taking the time to join us, in some cases from 
faraway places. I think all of you know that the Western 
portion of the country has really experienced some very severe 
drought conditions over the past few years. I don't have to 
look any further than my home State of Colorado, where reduced 
precipitation, in addition to abnormally high temperatures, 
have caused extreme wildfire conditions, water restrictions, in 
some cases, a decline in tourism, reduced crop yields, and many 
other harmful effects.
    There is no doubt that drought has been very harmful to our 
economy, but as the Chairman pointed out, it is not always 
addressed as a national disaster, because it is slow to 
develop. Unlike disasters such as tornadoes, droughts do not 
have a clear beginning or end, but rather, precipitation slowly 
declines, and our reservoirs and soil become increasingly 
drier. The Department of Homeland Security is preparing for 
natural disasters such as floods and hurricanes, but I don't 
think we are doing enough to mitigate and reduce the effects of 
drought.
    Let me be clear. I don't want to disparage the efforts of 
NOAA and the Drought Monitor. This program provides important 
seasonal drought information that has aided countless 
communities to make decisions to respond to the drought 
conditions, but I believe there is more that NOAA can do to 
provide detailed seasonal and long-term drought monitors on a 
regional and localized basis, and I believe we must do this by 
making the information more easily accessible and more 
understandable to the general public.
    You all will help us understand further that there are 
several federal agencies that have some involvement in drought 
monitoring or forecasts. Often, their information, however, is 
not available to the general consumer, or requires the user to 
visit several different locations to piece together an accurate 
picture of the conditions in their area. So, the federal 
investment in drought research and mitigation is only useful if 
decision-makers can obtain and utilize the information, and 
that is where I believe NIDIS could be most useful. Not only 
would it allow for more comprehensive drought monitoring and 
forecasting, but it can provide a one stop shop location for 
drought information.
    Obviously, as one of the sponsors of this legislation, it 
is no surprise that I am supportive of the NIDIS proposal, but 
I am here today to hear from you all and your opinions will be 
very helpful, as we look to make some improvements, if 
necessary, in the legislation, and overall, put in place an 
even better drought monitoring system, so we cannot only 
prepare for today, but for the long-term.
    So, Mr. Chairman, again thank you for holding this hearing. 
Judge Hall, it is always a real honor to join you in a 
legislative initiative, and thanks again for being here.
    [The prepared statement of Mr. Udall follows:]
            Prepared Statement of Representative Mark Udall
    First, I would like to thank the Chairman and Ranking Member for 
scheduling this hearing and markup and assisting the speedy 
consideration of this bill.
    I would also like to welcome our witnesses here today. I am very 
interested to hear from each of you about your experiences with 
planning for drought as well as the potential for a system such as 
NIDIS.
    As most of you know, the western portion of this country have 
experienced severe drought conditions in the past few years.
    In my own home State of Colorado, the reduced precipitation in 
addition to high temperatures have caused extreme wildfire conditions, 
water restrictions, a decline in tourism, reduced crop yields, and many 
other harmful effects.
    There is no doubt that drought has extremely harmful affects on our 
economy, however it is not always addressed as a natural disasters 
because it is slow to develop.
    Unlike disasters such as tornadoes, droughts do not have a clear 
beginning or end, but rather precipitation slowly declines and our 
reservoirs and soil becomes increasingly drier.
    While the Department of Homeland Security is working to prepare for 
natural disasters such as floods and hurricanes, the Federal Government 
is not doing enough to mitigate and reduce the effects of drought.
    I do not want to disparage the current efforts of NOAA and the 
Drought Monitor. This program provides important seasonal drought 
information that has aided countless communities to make decisions to 
mitigate drought.
    But I believe there is much more NOAA can do to provide detailed, 
seasonal and long-term, drought monitors on a regional and localized 
basis.
    I also believe we must do this by making information easily 
accessible and understandable to the general public.
    There are several different federal agencies that have some 
involvement in drought monitoring or forecasts.
    Often their information is not available to the general consumer, 
or requires a user to visit several different locations to piece 
together an accurate picture of the drought conditions in their area.
    The federal investment in drought research and mitigation is only 
useful if decision-makers can obtain and utilize the information.
    This is where I believe NIDIS can be most useful. Not only will 
this allow for more comprehensive drought monitoring and forecasting, 
but also can provide a one-stop-shop for drought information.
    As one of the sponsors of this legislation, it is no surprise that 
I am supportive of the NIDIS proposal.
    But we are here today to hear from our witnesses about NIDIS.
    And I am intrigued to learn their opinions about NIDIS and how it 
can be most effective as well as what improvements we can make to our 
drought monitoring systems to provide the most informative data.
    I again thank our witnesses for joining us here today and look 
forward to your testimony.

    Chairman Ehlers. Thank you. If there are any further 
Members who wish to submit additional opening statements, their 
statements will be added to the record. Without objection, so 
ordered.
    [The prepared statement of Mr. Matheson follows:]
           Prepared Statement of Representative Jim Matheson
    I want to begin today by thanking the Subcommittee on Environment, 
Technology, and Standards for holding this hearing and for bringing 
attention to an issue that resonates deeply with my constituents and 
residents in every state.
    Only a few years ago, Utah experienced its worst drought in over 
two decades. As I witnessed the profound impact of water scarcity on 
agricultural crop losses, forest fires, and the day-to-day lives of 
Utahns, I felt it was time to focus national awareness on the topic of 
drought and its impact on Utah's economy and resources. In 2002, with 
the help of Science Committee staff, I hosted a similar Full Committee 
hearing in Salt Lake City entitled, ``Drought: Prediction, Preparation, 
and Response.'' We put together an expert panel of witnesses who 
illustrated many of the major challenges posed by drought in the West 
today and highlighted the need to accurately predict and manage drought 
conditions in this country.
    The people of Utah have always understood the scarcity and 
importance of water much more clearly than the Federal Government. The 
West was, is, and always will be a land of little rain. When the first 
settlers arrived in Utah over 150 years ago, they faced huge challenges 
in successfully finding and moving water so that they could grow crops 
and develop communities. Utah's booming population and rapid growth 
continues to test the State's ability to meet the increased water 
demands of its residents to this day.
    Recently, Mother Nature has shown Utah her kinder, gentler side, at 
least temporarily. Last year was wetter than average and drought 
conditions have somewhat abated for most of the state. But some regions 
aren't so lucky. Drought continues to affect the American West but is 
also crippling the southern Great Plains and south Texas. History has 
shown that no portion of the U.S. is safe from the ravages of extreme 
or severe drought conditions.
    I believe that part of the solution must include a long-term plan 
to better predict and prepare for the drought conditions we will face 
throughout the United States. I am pleased the Subcommittee is marking 
up the bill, H.R. 5136, the National Integrated Drought Information 
System Act of 2006, because I believe we need a single, comprehensive 
network of drought information to update the tools decision-makers need 
to accurately forecast drought and manage water resources. This bill is 
a good first step, but I believe we should also invest in data 
collection by funding the agencies that monitor snowpack, streamflow 
and soil moisture that would better enable us to predict a drought.
    More importantly, I also believe we need a comprehensive federal 
drought plan that integrates different regional responses and 
preparation for drought. That is why I am a co-sponsor of bipartisan 
legislation, H.R. 1386, the National Drought Preparedness Act, which 
calls for improved drought forecasting similar to H.R. 5136. In 
addition, the National Drought Preparedness Act creates a national 
drought policy, provides additional tools for drought preparedness 
planning, and coordinates the delivery of federal drought programs.
    Drought is not a problem we are going to solve this year. It is 
complex, and it will continue to affect our nation in profound ways. 
But I thank the Subcommittee for raising awareness of this issue and 
moving legislation that helps solve one piece of the puzzle by 
improving drought forecasting and monitoring. I look forward to all the 
testimonies today and to working with my colleagues on the Science 
Committee and in Congress to further address this critical issue.
    Thank you.

    Chairman Ehlers. At this time, I would like to introduce 
our witnesses, and several will be introduced by other Members 
who are here.
    The first witness is Dr. Chester Koblinsky, Director of the 
NOAA Climate Program Office, and this committee has a great 
deal of interaction with NOAA. We are pleased to have you here.
    I will now turn to Mr. Lucas to introduce our next witness.
    Mr. Lucas. Thank you, Mr. Chairman, and I appreciate the 
opportunity to do that, and I am extremely proud to introduce 
our next witness, who hails from my home State of Oklahoma.
    Mr. Duane Smith holds a Bachelor's degree in meteorology 
from the University of Oklahoma, and although my district 
includes Oklahoma State, which by the way, is my alma mater. We 
are all aware of the top quality meteorological school at 
Norman, and I am especially pleased to have him here to testify 
before the Subcommittee today.
    Mr. Smith has been with the Oklahoma Water Resources Board 
for the last 28 years, acting as Executive Director since 1997. 
He oversees the agency's five action divisions that carry out 
programs entrusted to the Oklahoma Water Resources Board, and 
one of the Board's most successful programs is its billion 
dollar financial assistance program, designed to assist 
Oklahoma communities and rural water districts in meeting 
financial needs to provide good quality water to Oklahomans.
    Mr. Smith is also Oklahoma's Commissioner to three of 
Oklahoma's Interstate Stream Compacts. He is the Oklahoma 
representative to the Interstate Oil and Gas Compact 
Commission, and serves as the Chairman of the Oklahoma Weather 
Modification Advisory Board. He serves on the State's Drought 
Response Team as Chairman of the External Advisory Board to the 
MESONET Council, something we are very proud of in Oklahoma, 
the MESONET system. And Mr. Smith was recently appointed by 
Governor Henry to represent Oklahoma on the Western States 
Water Council, where he most recently served as Vice-Chairman.
    This committee is very honored to hear the testimony from 
Mr. Smith, and I look forward with the great insight he will 
provide us, and once again, thank you, Mr. Chairman, for the 
opportunity to do this today.
    Chairman Ehlers. And thank you for attending.
    The next witness is Mr. Kenneth Dierschke, and I don't have 
any background data, I am sorry, President of the Texas Farm 
Bureau. I had planned to have Mr. Hall introduce you, but he 
had to go to a different meeting. But we are pleased to have 
you here as well.
    Next, Mr. Udall will introduce the next witness. Mr. Udall 
is recognized.
    Mr. Udall. Thank you, Mr. Chairman.
    It is a pleasure to introduce Mark Waage, who is here from 
the Denver Water Board, his responsibilities include the raw 
water supply for this very significantly sized institution. 
Denver Water serves over one million people in the Denver area, 
and we all, but particularly Denver, depend on mountain runoff 
for our source of water.
    This organization has extensive experience in water 
management during a drought, and planning for drought 
conditions. Mr. Waage's experience is just as extensive. He has 
served 18 years in his current position. He doesn't look any 
worse for wear, as I can testify. He attended Colorado State 
University, received Bachelor's and Master's degrees in civil 
engineering, with a specialty in water resource engineering.
    He currently manages the collections and storage system 
along the eastern and western slopes of Colorado. As I 
mentioned in my opening statement, Colorado was, by most 
accounts, in a decade-long drought cycle, and as a result, Mr. 
Waage has had the challenging task of managing the scarce water 
supply for a major metropolitan area, while also taking into 
consideration the implications of water use, both 
environmentally and economically. I am really glad that you are 
here today, and look forward to hearing your testimony.
    Thank you so much.
    Chairman Ehlers. Thank you. And finally, we recognize Dr. 
Donald Wilhite, Director of the National Drought Mitigation 
Center.
    Clearly, we have a good panel of experts here, and we look 
forward to your testimony. As the witnesses presumably have 
been told, that little black box in the center there will tell 
you what--how much time we have. You can do whatever you wish 
with your written comments. We don't mind if those are long, 
but we ask that your restrict your spoken presentation to five 
minutes. The green light will tell you that you are within the 
first four minutes. The yellow light tells you that you are in 
the last minute, and the red tells you you are in deep trouble. 
So, we would ask you to wrap up as quickly as you can once the 
red light goes on.
    And we are pleased to start with Dr. Koblinsky.

   STATEMENT OF DR. CHESTER J. KOBLINSKY, DIRECTOR, CLIMATE 
  PROGRAM OFFICE, OFFICE OF OCEANIC AND ATMOSPHERIC RESEARCH, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Koblinsky. Good morning, Mr. Chairman, and thank you, 
and Members of the Committee. My name is Chet Koblinsky, and I 
am the Director of the Climate Program Office at NOAA.
    Chairman Ehlers. Could you lift your microphone up, please?
    Dr. Koblinsky. And I also serve as the leader of NOAA's 
Climate Mission Goal, which oversees the development of all 
climate activities across NOAA's various offices. I appreciate 
the opportunity to testify at this hearing about the National 
Integrated Drought Information System.
    NOAA's climate programs provide the Nation with services 
and information to improve the management of climate sensitive 
sectors, such as energy, agriculture, water, and living marine 
resources. Our services address climate change and variability 
on timescales ranging from weeks to decades for a variety of 
phenomena including drought. Let me begin by describing some 
key drought monitoring and forecast information products 
currently provided by NOAA and other federal agencies.
    While there is no single definition of drought that meets 
all needs, drought refers to a deficiency in precipitation over 
a period of time, resulting in a water shortage that impacts 
both human activities and the environment. In order to 
determine if drought conditions exist, NOAA scientists evaluate 
observations of precipitation, soil moisture, temperature, 
ground and surface water, as well as crop and vegetation 
conditions for the present and recent past. This information is 
incorporated into the U.S. Drought Monitor, a weekly update of 
drought conditions across the Nation.
    The Monitor is the result of a truly collaborative effort 
among experts from NOAA, the U.S. Department of Agriculture, 
and the National Drought Mitigation Center at the University of 
Nebraska. The current version of the Monitor highlights severe 
to exceptional drought conditions in the Southwest, the Great 
Plains from Kansas to Southern Texas, the northern Gulf Coast, 
as well as Virginia and the Carolinas. If you have been 
following the weather maps, however, over the recent week, you 
know that some of these conditions have changed.
    To show where drought will likely persist, ease, or 
develop, NOAA produces a monthly U.S. seasonal drought outlook. 
The outlook combines informations from NOAA's suite of daily 
seasonal--or suite of daily to seasonal forecast products. The 
outlook forecasts drought conditions over the next three and a 
half months. The most recent outlook, produced and released on 
April 20, projected that the persistence of current drought 
conditions into July would occur, with some exception of relief 
on the eastern sides of the Great Plains and the Gulf Coast, 
and indeed, this has happened over the past weekend, with 
severe rains on the eastern side of the Great Plains and the 
Gulf Coast.
    Drought is not a purely physical phenomenon. It is an 
interplay between water availability and the needs of humans 
and the environment. It is slow in onset, and its secondary 
effects, such as impacts on tourism, commodity markets, 
wildfires, or hydropower, are frequently larger than the 
primary effects, such as water shortages or crop losses.
    In recognition of these facts, NOAA conducts regional and 
sector-based studies to improve the utility of our climate 
information products. Through the development of decision 
support tools, NOAA helps to build bridges between technical 
experts and decision- or policy-makers. The increasing demand 
for drought information has motivated the development of a 
broad-based plan for a National Integrated Drought Information 
System, or as it is sometimes known by its acronym, NIDIS.
    Initially proposed in 2004 by the Western Governors 
Association, this is an ambitious program to significantly 
enhance the Nation's ability to monitor and forecast drought. 
It will create an early warning system, to enable the Nation to 
move from a reactive to a more proactive approach to drought 
problems. The key components are integrated observations, data 
systems, and forecasts; tools for analysis and decision 
support; research on monitoring, forecasts and impacts; and 
information dissemination and feedback.
    In response to a recommendation from the Western Governors 
for NOAA to lead the National Integrated Drought Information 
System, we have initiated its development, in partnership with 
other federal, regional, and State organizations. For example, 
within the U.S. Integrated Earth Observation System Strategy, 
federal agencies have worked together to identify current 
conditions to a drought--excuse me, current contributions to a 
drought information system, as well as its critical gaps in 
observations and information delivery mechanisms.
    At this point, we are developing an implementation plan for 
the National Integrated Drought Information System with these 
other federal and State agencies. However, the overall strategy 
for the development of the system can be posed as happening in 
three basic steps. The first would improve observations, such 
as the soil, moisture and groundwater networks, and consolidate 
data and its delivery through Internet portals. It would 
conduct research to improve analyses, forecasts, and decision 
support, and build pilot projects in the most critically 
affected areas. Then, using lessons learned from these pilot 
projects, we would move on to improve observing networks, data 
products, decision support tools, and public feedback. And 
finally, expand the pilot projects into a truly national 
system. If supported, we project that it will take five to six 
years to fully implement NIDIS.
    The President's fiscal year 2007 budget request for NOAA 
includes an increase of $5.7 million to support the information 
system. Of this amount, $4 million will support drought impact 
research, while the remainder addressees the climate reference 
network and regional climate services. In addition, the budget 
includes a program entitled ``Explaining climate conditions to 
improve predictions,'' that would reconstruct and understand 
the climate of the 20th Century, that would enable us to 
understand the causes of the major droughts of the '30s and 
'50s.
    The National Integrated Drought Information System will 
improve the quality and usefulness of drought monitoring and 
forecast information. It will pull together existing drought 
information and forecasts, including the Monitor and the 
outlook, with additional observations and research. By 
integrating federal, regional, and State information, the 
National Integrated Drought Information System will become a 
dynamic and accessible system to address the Nation's needs. It 
will provide users with the ability to determine the potential 
impacts of drought and their associated risks. It will provide 
the decision support tools needed to better prepare for and 
mitigate the effects of drought.
    As a result of being incorporated into the National 
Integrated Drought Information System, the Monitor and the 
outlook tools that I mentioned earlier will be able to provide 
improved information at a higher resolution. In general, 
drought monitoring and forecasting under this system will be 
more objective, comprehensive, and timely.
    Mr. Chairman, this concludes my testimony, and I am pleased 
to answer any questions that you or the other Members of the 
Committee may have.
    [The prepared statement of Dr. Koblinsky follows:]
               Prepared Statement of Chester J. Koblinsky
    Good morning, Mr. Chairman and Members of the Committee. I am 
Chester (Chet) Koblinsky, Director of the National Oceanic and 
Atmospheric Administration's (NOAA's) Climate Program Office, which is 
part of NOAA's Office of Oceanic and Atmospheric Research. I am also 
the team leader of NOAA's Climate Mission Goal, which oversees all of 
NOAA's climate activities. Thank you for inviting me to discuss drought 
conditions in the United States and NOAA's role in drought research, 
monitoring, and forecasting.
    NOAA's climate programs provide the Nation with services and 
information to improve management of climate sensitive sectors, such as 
energy, agriculture, water, and living marine resources, through 
observations, analyses and predictions, and sustained user interaction. 
Our services include assessments and predictions of climate change and 
variability on time scales ranging from weeks to decades for a variety 
of phenomena, including drought. In my testimony I will highlight: (1) 
the current drought conditions across the Nation; (2) the drought 
outlook for 2006; (3) NOAA's drought monitoring and forecasting 
capabilities; (4) the National Drought Information System (NIDIS); (5) 
NOAA's views on H.R. 5136; (6) NOAA's drought research activities; and 
(7) NOAA's interagency collaborations on drought.

Defining Drought

    In the most general sense, drought refers to a period of time when 
precipitation levels are abnormally low, impacting human activities and 
the environment. While there is no single definition of drought that 
meets all needs, drought refers to a deficiency in precipitation over a 
period of time resulting in a water shortage. Scientists evaluate 
precipitation, temperature, soil moisture, ground water, and surface 
water data for the present and recent past to determine if drought 
conditions exist. Drought is not a purely physical phenomenon, but is 
an interplay between water availability and the needs of humans and the 
environment. Drought is a normal, recurrent feature of climate. It 
occurs almost everywhere, although its features vary from region to 
region. For consistency, I will be referring to drought conditions as 
defined using the U.S. Drought Monitor methodology, unless otherwise 
noted, throughout the remainder of my statement.
    Drought is a unique natural hazard. It is slow in onset, does not 
typically impact infrastructure directly, and its secondary effects, 
such as impacts on tourism, commodity markets, transportation, 
wildfires, insect epidemics, soil erosion, and hydropower, are 
frequently larger and longer lasting than the primary effects, such as 
water shortages and crop, livestock, and wildlife losses. Drought is 
estimated to result in average annual losses to all sectors of the 
economy of between $6 to $8 billion (in 2005 dollars). The costliest 
U.S. drought of the past forty years occurred in 1988 and caused more 
than $62 billion (in 2005 dollars) of economic losses. Although drought 
has not threatened the overall viability of U.S. agriculture, it does 
impose costs on regional and local agricultural economies. Severe fire 
seasons due to drought and frequent winds can also result in billions 
of dollars in damages and fire suppression costs.

Current Drought Status

    Drought conditions across the United States are depicted in Figure 
1. Although drought is affecting at least part of the West for the 
seventh consecutive year, drought conditions are much less expansive 
than in the recent past, with severe to extreme drought restricted to a 
relatively small region from Arizona eastward through much of New 
Mexico and southeastern Colorado.
    The protracted, multi-year drought that had been plaguing the West 
has finally loosened its grip on central and northern parts of the 
region, where both precipitation and snowpack are near- to above-normal 
since the beginning of the 2005/2006 water year (October 1, 2005). This 
precipitation, in concert with copious precipitation that fell on 
central and southern parts of the West during the 2004/2005 water year, 
gradually eliminated drought conditions and boosted reservoir levels in 
most areas to the north and west of southern Colorado, although pockets 
of moderate drought persist in portions of Wyoming. Precipitation 
totals are now above-normal for time periods extending back two years 
along the West Coast and no drought conditions are reported for this 
region as of late April 2006.
    There remain two aspects of the current drought which have not 
fully recovered from the multi-year dry spell, even though most of the 
West is no longer shown as abnormally dry in the Drought Monitor 
(Figure 1). First, ground water levels in some areas, such as 
southeastern Idaho, remain exceedingly low. Second, the largest 
reservoirs in the West, such as Lakes Mead (58 percent full) and Powell 
(44 percent full), have not had enough time to recharge, and remain 
well below capacity.
    Drought has been slowly intensifying since the start of the 2005/
2006 water year across Arizona and New Mexico. During October 2005-
April 2006, less than 50 percent of normal precipitation fell over most 
of Arizona and New Mexico, resulting in a meager snowpack and 
unseasonably high fire danger. During the first three months of 2006, 
wildfires consumed almost 221,000 acres of land in the Southwest Area 
(comprised of western Texas, the Oklahoma Panhandle, New Mexico, and 
Arizona), more than five times the average January-March total for the 
previous nine years. Surface moisture shortages are also affecting 
agriculture with about 94 percent of New Mexico topsoils characterized 
as short or very short of moisture, and 67 percent of the State's 
winter wheat crop in poor or very poor condition as of mid-April 2006. 
A majority of both Arizona and New Mexico are now depicted as 
experiencing severe to extreme drought, according to the U.S. Drought 
Monitor. However, except for southwestern New Mexico, water supplies 
are not as problematic across the Southwest because of heavy 
precipitation that fell last water year (2004/2005) boosting reservoir 
levels.
    Moderate drought covers a significant portion of the central Great 
Plains, although recent storms have erased lingering dryness in parts 
of the northern Plains. Severe to extreme drought, aggravated by record 
heat in mid-April, encompasses the southern Great Plains from southern 
Kansas and southwestern Missouri southward through central Texas. 
Farther south, exceptional drought, the most serious drought 
classification depicted by the U.S. Drought Monitor, has settled into 
southern Texas. Moderate to heavy rainfall during March eliminated 
extreme to exceptional drought conditions in southeastern Oklahoma and 
adjacent parts of Texas and Arkansas, with additional improvement in 
late April, but a broad area of severe drought lingered in its wake. 
Record dryness occurred in 2006 with Kansas having the driest February 
on record, Oklahoma the driest November to February, and Arkansas the 
driest October to February and March to February.
    The drought in the southern Great Plains has been highlighted by 
two particularly severe impacts: stressed winter wheat and dangerous 
wildfires. As of mid-April, 78 percent of Texas winter wheat was in 
poor or very poor condition, as was 67 percent of Oklahoma winter 
wheat. In contrast, 23 percent of Kansas winter wheat and just 12 
percent of Nebraska winter wheat rated poor or very poor. Through the 
first three months of 2006, fire danger was frequently high in the 
Southwest, the Plains, and parts of the East, but the largest and most 
damaging wildfires have occurred in Texas and adjacent areas. A record 
season continues and as of April 20, 2006, the Texas Forest Service is 
reporting over 1.5 million acres burned in the State during 2006.
    Across northern Illinois and southern Iowa, recent heavy rains have 
greatly ameliorated or eliminated the long-term drought which began 
affecting the region during the spring of 2005.
    Severe to extreme drought has recently developed along the northern 
Gulf Coast, as six-month rainfall from early October to mid-April 
totaled less than 50 percent of normal from southern Louisiana into 
southern Alabama, though recent thunderstorms (especially on April 21) 
brought some relief. To the east, short-term dryness recently developed 
along the eastern half of the Gulf Coast, and the central and northern 
sections of the Atlantic Coastal Plain. As a result of depleted surface 
moisture, wildfires developed across Florida in March and April, and 
fire danger remained high, while the most noticeable impact of the 
short-term dryness from the Carolinas northeastward through southern 
Maine has been a sharp drop in streamflows relative to historic 
observations for this time of year. In the New England hydrologic 
region, 23 percent of reporting gauges set new daily low flows on April 
20, 2006, with 13 percent setting low flows in the South Atlantic 
region, and 10 percent in the mid-Atlantic region. Heavy rains falling 
over the Appalachians, mid-Atlantic states, and New England on April 
21-24 have significantly eased drought concerns for the time being.
    The dryness across most of the eastern states generally developed 
over the course of the last few months. In the central Carolinas and 
adjacent Virginia, however, rainfall shortages date back much longer, 
affecting water supplies in some areas. Most of this region is 
classified as experiencing moderate to severe drought in mid-April, 
with the largest and longest-duration precipitation deficits observed 
in central North Carolina resulting in almost 10 percent of the State's 
population under mandatory water conservation measures.

Historical Perspective

    From a historical perspective of droughts, some indicators depict 
the recent multi-year drought (1999-2006) as one of the most severe in 
the past 40 to 100 years, comparable to the severe droughts in the 
1950s and 1930s in some areas. On a national scale, 51 percent of the 
contiguous U.S. was affected by moderate to extreme drought, as defined 
by the Palmer Drought Index, during the peak of the drought in the 
summer of 2002. This comes in third, behind 80 percent and 60 percent 
at the peak of the 1930s and 1950s national droughts, respectively.
    For the western United States, the current drought started in 1999 
and grew to affect 87 percent of the West at its peak in the summer of 
2002. This is second only to the summer of 1934 when 97 percent of the 
West was affected. In terms of the combined effects of intensity and 
duration, the 1999-2006 and 1986-1993 western droughts are 
unprecedented in the 110-year historical record. However, based on tree 
rings and other paleoclimatic data, droughts that have been more 
extreme than the current one have periodically affected the West during 
the last one thousand years, with some droughts lasting 20 to 30 years 
or longer. Paleoclimatic dating of these multi-decadal drought coincide 
with evidence of societal stresses on native populations, including the 
Anasazi of the four corners region. Recent population growth throughout 
the U.S. and particularly in the West has placed increased demands on 
water supplies, so drought vulnerability has increased because of 
greater numbers of water users.

The Outlook

    In order to fully appreciate the long-term outlook for the drought, 
it is helpful to understand the meteorological causes and ongoing 
research issues. Recent research, much of it coming from NOAA 
laboratories or from NOAA-funded projects at universities and based on 
collections of statistical and physical models, shows the important 
role existing ocean and ground conditions play in establishing wind 
patterns leading to ``blocking'' in the atmosphere. Blocking is an 
important factor in setting up the weather conditions which cause 
prolonged warm and dry conditions and reduced rainfall and above-normal 
warmth. Climate trends should also be considered when forecasting the 
future evolution of a drought. Climate across much of the U.S. has been 
getting warmer for about 20-25 years, especially in the winter and 
spring. These conditions contribute to drought by increasing the rate 
of snow melt in the spring and early summer, and also by increasing 
water evaporation.
    The seasonal drought outlook (Figure 2) incorporates medium and 
long-range forecasts of precipitation and temperature from NOAA's 
Climate Prediction Center and also considers the spring-summer 
streamflow forecasts from the U.S. Department of Agriculture and NOAA's 
National Weather Service. While precipitation has eliminated drought 
conditions across much of the West, recent precipitation in the 
Southwest will not be enough to make up for the extreme dryness 
experienced from October into early March. As of late April, mountain 
snow water content stood at less than 25 percent of normal for much of 
Arizona and New Mexico. As the dry season sets in, opportunities for 
further improvement will be quite limited through June. Furthermore, 
the official seasonal outlook produced by NOAA's Climate Prediction 
Center suggests that for May through July the Southwest will experience 
higher than normal temperatures which will increase mountain snow melt 
and evaporation. The latest streamflow forecasts for this spring and 
summer produced by USDA's Natural Resources Conservation Service and 
NOAA's National Weather Service indicate much below-normal streamflow 
for Arizona, New Mexico, southern Colorado and parts of southern Utah. 
Therefore, the seasonal drought outlook through July shows drought 
persisting over much of the region, although the monsoon season and its 
increased chance for showers and thunderstorms during July and August, 
should lead to some improvement in a few areas.
    NOAA's seasonal forecasts indicate that there is an increased 
chance for below normal rainfall during the spring and summer over the 
central and southern Plains. These forecasts also indicate an enhanced 
probability for higher than normal temperatures. Persistent drought is 
expected throughout July over southern and western Texas, eastern New 
Mexico, western Oklahoma, western Kansas, and eastern Colorado, as well 
as southern Nebraska. Ongoing drought accompanied by varying degrees of 
improvement is expected from Missouri into eastern parts of Kansas, 
Oklahoma, and Texas, and along the Gulf Coast, with more significant 
improvement over Arkansas and adjacent parts of Oklahoma and Texas.
    Elsewhere, the recent rains have reduced the odds for drought 
expansion or intensification from the mid-Atlantic states 
northeastward, but near-drought conditions will likely remain a concern 
this spring from Florida into southern Georgia.

Drought Monitoring and Forecasting

    NOAA continues to work with its partners to improve our nation's 
ability to monitor drought. The U.S. Drought Monitor is produced on a 
weekly basis by drought experts from four U.S. organizations (NOAA's 
National Climatic Data Center, NOAA's Climate Prediction Center, the 
U.S. Department of Agriculture (USDA), and the National Drought 
Mitigation Center at the University of Nebraska) with input from other 
federal and State agencies, as well as feedback from a network of over 
100 experts around the nation. The U.S. Drought Monitor provides a 
consensus on the current state of drought in all 50 states and Puerto 
Rico using multiple objective drought indices and indicators (e.g., 
soil moisture and streamflow) combined with reports of current 
conditions and impacts (e.g., weekly crop progress and condition 
reports) from a wide range of public and private sector partners at the 
federal, State, and local levels. Among its varied uses, federal 
officials have used the U.S. Drought Monitor in recent years to 
determine disaster assistance allocations to ranchers and farmers 
affected by severe drought.
    NOAA continues to develop new products to improve our drought 
monitoring capabilities. More accurate precipitation mapping 
capabilities have resulted in experimental soil moisture products that 
are now being refined in collaboration with the National Aeronautics 
and Space Administration (NASA), Princeton University, and the 
University of Washington to create practical tools for monitoring soil 
moisture. NOAA's Climate Prediction Center operates a U.S. 
Precipitation Quality Control and Analysis program that produces daily 
high resolution maps of precipitation. To provide better coverage and 
more accurate measurements to aid in monitoring drought, NOAA continues 
to modernize its network of cooperative observation sites as well. NOAA 
continues to improve its drought forecasts. NOAA's Climate Prediction 
Center produces a monthly U.S. Seasonal Drought Outlook which forecasts 
drought conditions over the next three and a half months. The drought 
outlooks combine information from NOAA's suite of forecast products, 
from daily to seasonal, to show where drought will likely persist, 
ease, or develop during the next season. NOAA's National Centers for 
Environmental Prediction also creates other numerous products useful 
for drought forecasting, such as two-week soil moisture forecasts based 
on temperature and rainfall forecasts and seasonal soil moisture 
forecasts based on soil moisture pattern from previous years. These 
forecasts help farmers, land managers and others prepare for and take 
steps to manage the effects of drought.
    NOAA can report some instances where the Agency accurately 
predicted several of the recent and ongoing droughts with the seasonal 
drought outlooks, especially in recent months. The early December 2005 
Outlook predicted drought expansion in the southern Plains and the 
Southwest and improvement in the Northwest by February 2006. The mid-
January Outlook accurately projected that drought would expand into 
Kansas and the Southwest, and this occurred by mid-March leading to 
problems with winter crops and pastures and increasing the danger of 
wildfires The Outlook issued on March 16 warned of possible drought 
development from Florida northward into the mid-Atlantic region. By the 
end of March, drought had expanded northward into Virginia and Delaware 
and abnormal dryness had spread across Florida.
    NOAA's drought monitoring is supported by critical remotely sensed 
data provided by NOAA's Geostationary and Polar-orbiting Operational 
Environmental Satellites (GOES and POES, respectively). POES satellites 
are used to monitor vegetation stress, a precursor for the early onset, 
severity and duration of drought. In the United States, vegetation 
stress is an indicator used by farmers and the agricultural industry to 
track the condition of crops. As an indicator of biomass, satellite 
data are valuable in assessing wildland fire potential. NOAA's next 
generation geostationary and polar-orbiting satellites--GOES-R and the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS)--are being designed to continue these important drought 
monitoring capabilities. We urge the Committee to support the FY 2007 
President's Budget Request for these programs.

National Drought Information System (NIDIS)

    Drawing from experiences with stakeholders in drought-affected 
regions and recent reports on drought and stakeholder needs, NOAA has 
identified a significant demand for a concentrated research and 
stakeholder interactions effort that: (1) assesses the Nation's 
vulnerability to drought; (2) develops products useful for drought 
planning; and (3) develops ongoing collaborations with stakeholders to 
communicate climate impact information, co-produce tools, and 
participate in drought planning activities. In response to this demand 
and a request from the Western Governors' Association (WGA), NOAA has 
taken the lead on the development and implementation of a National 
Integrated Drought Information System (NIDIS) in partnership with other 
federal, regional and State organizations.
    NIDIS is an ambitious program to significantly enhance the Nation's 
ability to monitor and forecast drought. It will establish a modern, 
dense network of observing locations to observe and monitor all aspects 
of drought and enhance stakeholder access to information on drought 
conditions, impacts, and forecasts. NIDIS, in turn, will be supported 
by a focused drought research program. NIDIS will create a national 
drought early warning system to enable the Nation to move from a 
reactive to a more proactive approach to drought. The vision is for 
NIDIS to be a dynamic and accessible drought information system that 
provides users with the ability to determine the potential impacts of 
drought and their associated risks and also provides the decision-
support tools needed to better prepare for and mitigate the effects of 
drought.
    NIDIS will provide more comprehensive and timely drought 
information and forecasts which are required by numerous sectors to 
mitigate drought-related impacts. The Bonneville Power Administration 
and other hydropower authorities will benefit from enhanced water 
supply forecasts and drought information for hydropower management 
decisions. Water resource managers will have access to more information 
when balancing irrigation water rights with the needs of wildlife. 
Purchasing decisions by ranchers for hay and other feed supplies will 
be enhanced through the use of drought information to identify areas of 
greatest demand and the potential for shortages. Farmers will be better 
positioned to make decisions on which crops to plant and when to plant 
them. Municipalities and State agencies will have improved drought 
information and forecasts when allocating domestic and industrial water 
usage. Since drought information is used in allocating federal 
emergency drought relief, improvements in monitoring networks will also 
lead to more accurate assessments of drought and, as a result, 
emergency declaration decisions that better reach out to those 
communities in need of assistance.
    A hallmark of NIDIS will be the provision of decision support tools 
coupled with the ability for users to report localized conditions. To 
this end, NIDIS will link multi-disciplinary observations to `on-the-
ground' conditions that will yield value-added information for 
agricultural, recreational, water management, commercial, and other 
sectors.
    The four key components of NIDIS are: (1) improved integrated 
observations and data systems and forecasts; (2) new tools for analysis 
and decision support; (3) coordinated monitoring, forecast, and impacts 
research and science; and (4) improved information dissemination and 
feedback.
    The implementation of NIDIS will require: (1) building a national 
drought monitoring and forecasting system; (2) creating a drought early 
warning system; (3) providing an interactive drought information 
delivery system for products and services--including an Internet portal 
and standardized products [databases, forecasts, Geographic Information 
Systems (GIS), maps, etc.]; and (4) designing mechanisms for improved 
interaction with the public (education materials, forums, etc.).
    NOAA will work internally to integrate planning for the observing 
system requirements, research priorities, and operational needs of 
NIDIS. A NIDIS executive team will be established to oversee 
implementation and coordination of NIDIS among the federal partners 
[NOAA, U.S. Department of Agriculture (USDA), U.S. Army Corps of 
Engineers (USACE), Bureau of Land Management (BLM), Bureau of 
Reclamation (BOR), U.S. Geological Survey (USGS), Environmental 
Protection Agency (EPA), NASA] and will be facilitated by the National 
Science and Technology Council's Committee on Environment and Natural 
Resources. The result will be a sustained and coordinated interagency 
program, which will report regularly on its status, accomplishments, 
and plans for improvements.
    The expertise and tools of a number of NOAA programs are being 
brought together under the NIDIS framework to help the nation address 
the challenge of drought. Climate services conducted in NOAA's National 
Weather Service; National Environmental Satellite, Data, and 
Information Service; and Office of Oceanic and Atmospheric Research 
will support NIDIS. NOAA's cooperative institute partners, Regional 
Integrated Sciences and Assessments (RISAs) teams, and Regional Climate 
Centers will be involved as well. NIDIS will also be supported by 
NOAA's current operational drought monitoring and outlook products and 
NOAA's applied climate research program.
    The President's FY 2007 Budget Request for NOAA includes $16.2 
million for Climate Observations and Services, with a $4.0 million 
increase to directly support NIDIS related activities. This increase 
will sponsor integrated, problem-focused research and research-to-
operations transition projects. Additional increases of $1.2 million 
for the Climate Reference Network and $0.5 million for regional climate 
services will help NOAA realize improvements in observation systems 
required by NIDIS. NOAA is projecting that it will take five to six 
years to fully implement NIDIS with gradual improvement in NOAA's 
drought monitoring and forecasting capabilities occurring throughout 
the implementation process.
    NIDIS is part of a larger NOAA effort over the past several years 
to deliver climate services that are produced and delivered in on-going 
consultation with affected stakeholders in order to ensure that the 
research-based insights, information products and expert opinions 
delivered are of the highest relevance and utility to the set of 
challenges at hand.

NOAA Views on H.R. 5136

    H.R. 5136 establishes the National Integrated Drought Information 
System within NOAA. The bill largely parallels NOAA's on-going efforts 
to improve our nation's ability to monitor and forecast drought, by 
developing a comprehensive drought early warning system to help the 
Nation better prepare for and manage the effects of drought. NIDIS is 
currently being implemented within NOAA's existing authorities, which 
the Administration believes are sufficient to continue the program; 
however, should Congress wish to move forward with such legislation, 
the Administration will not oppose it.
    NOAA leads the Federal Government effort on drought monitoring, 
forecasting and information provision, consistent with the aims of the 
United States Group on Earth Observations (USGEO). The language of H.R. 
5136 supports ongoing USGEO activities in developing a U.S. Integrated 
Earth Observation System and focusing on NIDIS as one of six near-term 
opportunities to achieve results. The U.S. Integrated Earth Observation 
System serves as the U.S. component of the emerging Global Earth 
Observation System of Systems (GEOSS).
    As noted above, the President's FY 2007 Budget Request includes 
significant investments in drought research and forecasting, as well as 
other areas which can be leveraged by NIDIS. We ask the Committee to 
support President's budget request for FY 2007, which will help NOAA 
implement NIDIS. We look forward to working with the Committee to make 
a robust NIDIS a reality.

Drought Research Activities

    NOAA research activities support drought risk assessment and 
management. The research is focused on developing predictions of 
drought onset, termination, duration, and severity and the prediction 
of multi-year to decadal drought as a function of sea surface 
temperature variability, deep soil moisture/ground water variability, 
and other factors. NOAA's research also includes assessments of 
societal, economic, and environmental vulnerability to drought to 
inform risk reduction efforts. This work objectively quantifies drought 
and its associated economic impacts to accurately quantify the monetary 
benefits of improved drought prediction and mitigation. Our methods 
incorporate uncertain drought predictions to improve public and private 
sector planning and operational decision-making for water supply, 
transportation, hydropower, and irrigation.
    An integral part of NOAA's drought research activities is NOAA's 
support over the last 15 years of university-based research focused on 
the use of seasonal and inter-annual climate prediction information in 
decision-making across a range of sectors (e.g., agriculture, water 
management, public health, forest fire management, fisheries). In 
recent years, these university-based researchers through NOAA programs, 
such as the Regional Integrated Sciences and Assessments (RISA), 
Sectoral Applications Research Program (SARP), and NOAA Climate 
Transition Program (NCTP), have been working with stakeholders at the 
local, State, and regional levels to determine what type of climate 
information would be useful to their decisions and determining how 
scientific information could help to reduce vulnerability to drought, 
in particular, along with other extreme events and long-term climate 
trends (e.g., declining snowpack). NOAA-funded researchers have been 
working with farmers, ranchers, State governors' offices, water 
management agencies, ditch companies, forest fire managers, and other 
stakeholders to analyze vulnerability to climate, assess the need for 
different types of climate information, and develop information of use 
to these decision-makers. NOAA-funded drought research activities 
support the U.S. Climate Change Research Program (CCSP), and are in 
turn enhanced by the broader CCSP research going on at universities and 
other federal agencies. By understanding the role of drought in human 
affairs and how information on the probability of drought can be 
integrated into existing decision environments, it is possible to move 
from drought response to pro-active drought management.
    As NOAA's global climate models improve, particularly the land 
component of Earth System Models, NOAA will be able to aggressively 
focus on drought prediction in the United States, at seasonal-inter-
annual time scales. In turn, as our understanding and skill at 
forecasting seasonal to inter-annual climate improves, the ability to 
use long-term climate models to assess regional drought risks increases 
as well. To better predict drought and other climate events, NOAA 
continues to invest in research to better understand the 
interdependencies of the ocean and land and their combined influence on 
climate.
    Recent data shows a warming trend for the past several decades over 
much of the West, especially during the winter season. Climate models, 
using historical data, accurately simulate temperature increases 
consistent with this observed long-term warming trend. These models 
project the general warming trend will continue for the remainder of 
this century. However, neither climate model projections nor 
observations show any identifiable trend in precipitation, but they do 
reveal a changing distribution of precipitation intensity, similar to 
what would be expected in a warming climate. Specifically, NOAA's 
National Climatic Data Center and other research efforts have 
demonstrated that more of our precipitation is tending to fall in 
heavier precipitation events which can ultimately impact drought 
severity through changing precipitation run-off.
    Research at NOAA's Earth System Research Laboratory indicates 
recent decadal swings in precipitation in the western U.S. may be 
largely attributable to decadal variations and trends in ocean 
temperatures, especially in the tropical Pacific and Indian Oceans. The 
causes of these changes in ocean temperature are not fully understood, 
but are likely due in part to a combination of long-term climate change 
and variability in the atmosphere and ocean. Even with unchanging total 
precipitation in the western United States, continuation of current 
temperature trends may significantly influence the annual water cycle 
as well as water demand, with subsequent implications for water 
management.
    NOAA and sister science agencies in Mexico are co-leading the North 
American Monsoon Experiment (NAME), an international effort to enhance 
understanding of the sources and limits of predictability of warm 
season precipitations over North America, with emphasis on time scales 
from seasonal to inter-annual. Improved understanding and prediction of 
monsoon rainfall in the southwestern U.S. and Mexico is critical for 
water resource management in the region.
    NOAA's research community continues to interact with researchers, 
nationally and internationally, to improve climate and statistical 
models based seasonal and longer-term outlooks, enabling a steady 
increase in our understanding of the causes of drought. Learning the 
mechanisms triggering drought will enable us to better forecast the 
likelihood of drought development months and years ahead of time.
    To improve NOAA's ability to detect and analyze inter-annual-to-
decadal variability in climate and weather-climate trends, NOAA has 
proposed in FY 2007 to invest in research to analyze and understand the 
causes of the 1930's and 1950's Dust Bowl droughts. One component of 
this research will be an extension of the current model-based 
reconstruction of climate back beyond 1948 to cover the entire 20th 
Century to enhance NOAA's ability to describe atmospheric conditions 
during the 1930's Dust Bowl. The second component in this effort will 
be research focusing on diagnosing the causes of 1930's and 1950's 
droughts and identifying opportunities to improve NOAA's capability to 
forecast the onset, severity and duration of high-impact scale 
droughts. This work will help NOAA address concerns and questions from 
stakeholders about comparisons between current conditions and those of 
the 1930's and 1950's.
    NOAA drought forecasters routinely meet with researchers to explore 
methods to improve the drought forecasts. Advanced forecast methods 
based on statistical and global numerical models will continue to be 
incorporated into drought outlooks, using the best forecast tools and 
research available. We are encouraged by recent research which helps to 
explain the reasons behind drought development. Realistically, it is 
(and always will be) a continuing challenge to produce seasonal 
forecasts which are consistently accurate. However, as with our weather 
forecasts, we believe we can continuously improve.

Collaboration With Other Agencies

    NOAA collaborates with many State and federal agencies (e.g., USDA, 
NASA, USGS, EPA, BOR, USACE, and others) and universities to 
understand, monitor, and predict drought. The U.S. Drought Monitor is 
only one example of this collaborative effort. NOAA works cooperatively 
with other agencies on research projects that can lead to improved 
drought monitoring tools. For example, we are currently working with 
NASA to incorporate additional satellite data from NASA and NOAA 
sensors into drought monitoring and forecasting. NOAA also works 
closely with the USDA on water supply forecasting in the western United 
States, and relies on the USGS for streamflow data critical to both 
water supply and flood forecasting. NOAA is also working with agencies, 
such as NASA, to improve seasonal drought forecasting. In May 2005, 
NOAA held a workshop with NASA to kick off this new effort in research 
collaboration. The workshop focused on what is needed to accelerate 
progress on drought prediction with a focus on developing capabilities 
and products that facilitate water management and agricultural 
applications for the Americas.
    Drought is a climate phenomenon with major impacts in North America 
and around the world. In today's global economy the costs and effects 
of drought extend beyond international borders and the North American 
Drought Monitor helps address this challenge. The North American 
Drought Monitor is a monthly product that the U.S. drought monitoring 
team produces in collaboration with Canadian and Mexican 
meteorologists. NOAA works with the U.S. Agency for International 
Development's Famine Early Warning System Network (USAID FEWS-NET) to 
monitor drought and significant weather events affecting water and food 
supplies in Africa, Central America, and Afghanistan. NOAA's 
contribution through a United States Agency for International 
Development-Office of Foreign Disaster Assistance (USAID-OFDA) 
partnership has resulted in the production of prototype scientific 
decision tools, such as prediction models for hydropower resource 
management in Eastern Africa where more than 70 percent of the 
countries rely on hydropower for electricity.

Concluding Remarks

    Mr. Chairman, this concludes my testimony. I thank you for the 
opportunity to discuss drought conditions in the United States; NOAA's 
role in drought research, monitoring, and forecasting; and NOAA's 
support for H.R. 5136. The topic of drought is critical given its 
economic and environmental impacts in the United States and the 
increasing demand for drought information to help manage the demand for 
water. I would be happy to answer any questions you or other Members of 
the Committee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ehlers. Thank you. Mr. Smith.
    Mr. Smith. Good morning, Mr. Chairman, Members----
    Chairman Ehlers. Is your microphone on?
    Mr. Smith. Now it is.
    Chairman Ehlers. Thank you.

  STATEMENT OF MR. DUANE A. SMITH, VICE CHAIR, WESTERN STATES 
 WATER COUNCIL, REPRESENTATIVE, WESTERN GOVERNORS ASSOCIATION; 
       EXECUTIVE DIRECTOR, OKLAHOMA WATER RESOURCES BOARD

    Mr. Smith. My name is Duane Smith. I am the Executive 
Director of the Oklahoma Water Resources Board, and I am 
testifying today on behalf of the Western Governors 
Association, as well as the Western States Water Council. I 
serve as Vice Chairman of the Western States Water Council.
    Drought is a complex and widespread natural hazard 
affecting more people in the United States than any other 
natural hazard, including hurricanes, floods, and tornados, and 
accumulated annual estimated losses between $6 and $8 billion. 
The magnitude and complexity of drought hazards have increased 
with growing population, population shifts to dryer climates, 
urbanization, and changes in land and water use.
    Although drought visits some part of our country every 
year, and causes billions of dollars in impacts, there does not 
exist a permanent national policy to prepare for and respond to 
drought disasters. Current efforts at drought management depend 
upon data that are scattered throughout numerous federal, 
State, regional, and local agencies. The Department of 
Agriculture's USDA Natural Resource Conservation Service, NRCS, 
manages snowpack information. The Army Corps of Engineers and 
Bureau of Reclamation manage reservoir storage data. NOAA 
manages hydroclimatic data. Interior's Geological Survey has 
groundwater and stream water flow information, and EPA manages 
various water quality programs in concert with the states and 
tribes. Regional and State entities also provide considerable 
data and information services used for drought analysis in real 
time. These programs have generally evolved independently, 
require separate appropriations, and until recently, have not 
been available to users at a central location due to their 
complexity and the absence of tools to accomplish data 
integration.
    The information produced by federal and non-federal 
partners that is critical to drought monitoring and prediction 
poses a problem for many users. The information is often 
technical, complex, and typically is not presented in a 
standardized format. Many potential users do not even know that 
the drought information even exists.
    NIDIS will bring together a variety of observations, 
analysis techniques, and forecasting methods as an integrated 
system that will support drought assessment and decision-making 
at the lowest geopolitical level possible. The tools will allow 
users to access, transform, and display basic data and 
forecasts across the range of spatial and temporal scales most 
suited for their individual needs. NIDIS will provide drought 
information through the Internet, in an interactive 
environment. The Internet will allow quick, convenient, 
frequent, and low cost assessments of drought risks by users.
    NIDIS will fill that gap by developing methodologies to 
collect and assess the social, environmental, and economic 
impacts of drought across the United States. These 
methodologies will also develop assessments from sectors not 
always at the forefront, such as livestock, timber, wildlife, 
energy, recreation, and tourism sectors.
    Drought-related research is critical in the production of 
innovations and technology that lead to improved drought 
preparedness. The simple act of coordinating drought research 
within and between levels of government, as well as with 
private entities and universities, will help accelerate the 
development and provision of scientifically-based information 
products, enabling users to better prepare, manage, and respond 
to impacts of drought.
    On June 21, 2004, the Western Governors unanimously adopted 
a report developed in partnership with NOAA entitled ``Creating 
a Drought Early Warning System for the 21st Century: The 
National Integrated Drought Information System.'' The report 
describes the vision for NIDIS, and offers recommendations for 
its implementation. The Western Governors Association and 
Western States Water Council support NIDIS, and encourage its 
enactment.
    We are already seeing impacts of the drought of 2006. 
According to the National Interagency Fire Center, there have 
been 32,988 fires between January 1 and April 24, on over two 
million acres of land. This compares to the five-year average 
for this time period of 23,639 fires.
    The Western Governors and the Western States Water Council 
believe that improved drought monitoring and forecasting is 
fundamental to a proactive approach to addressing not only 
drought, but water shortages. The National Integrated Drought 
Information System authorized by H.R. 5136 will allow policy-
makers and water managers at all levels of the private and 
public sectors to make more informed and timely decisions about 
water resources, in order to mitigate or avoid impacts from 
droughts.
    On behalf of the Western Governors Association and the 
Western States Water Council, I would like to commend 
Representative Hall and Representative Udall for introducing 
the National Integrated Drought Information System Act of 2006.
    Thank you for your leadership.
    [The prepared statement of Mr. Smith follows:]
                  Prepared Statement of Duane A. Smith
    On behalf of Western Governors' Association, Western States Water 
Council

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss an issue of great 
importance to Western states--drought monitoring and forecasting. My 
name is Duane Smith. I am the Executive Director of the Oklahoma Water 
Resources Board. I am testifying today on behalf of the Western 
Governors' Association, as well as the Western States Water Council. I 
currently serve as Vice Chair of the Western States Water Council.
    The Western Governors' Association is an independent, nonprofit 
organization representing the governors of 19 states, American Samoa, 
Guam and the Northern Mariana Islands. Through their Association, the 
Western governors identify and address key policy and governance issues 
in natural resources, the environment, human services, economic 
development, international relations and public management.
    The Western States Water Council is a ``sister'' organization to 
WGA consisting of representatives appointed by the governors of 18 
western states (does not include Hawaii). The purposes of the Council 
are: (1) to accomplish effective cooperation among western states in 
the conservation, development and management of water resources; (2) to 
maintain vital State prerogatives, while identifying ways to 
accommodate legitimate federal interests; (3) to provide a forum for 
the exchange of views, perspectives, and experiences among member 
states; and (4) to provide analysis of federal and State developments 
in order to assist member states in evaluating impacts of federal laws 
and programs and the effectiveness of State laws and policies.

Please describe the impact of drought on states' ability to manage 
water resources.

    Drought is a complex and widespread natural hazard, affecting more 
people in the United States than any other natural hazard, including 
hurricanes, floods, and tornadoes, and accumulating annual estimated 
losses between $6 and $8 billion. The magnitude and complexity of 
drought hazards have increased with growing population, population 
shifts to drier climates, urbanization, and changes in land and water 
use.
    Drought is a normal part of the climate for virtually all regions 
of the United States, but it is of particular concern in the West, 
where any interruption of the region's already limited water supplies 
over extended periods of time can produce devastating impacts. Records 
indicate that drought occurs somewhere in the West almost every year. 
However, it is multi-year drought events that are of the greatest 
concern to the economic and ecological health of Western states.
    Water scarcity continually defines and redefines the West. The 
steady growth that has been characteristic for much of the West today 
creates increased demands for agricultural, municipal and industrial 
water supplies. Population growth is continuing at an unprecedented 
rate in the West with ramifications not only for cities but rural 
communities and agricultural valleys. According to the 2000 Census 
Bureau statistics, population growth varied significantly by region in 
the 1990s, with the highest rates in the West (19.7 percent). The West 
increased by 10.4 million to reach 63.2 million people. While water 
resources are available for growth in the aggregate, they are virtually 
entirely ``appropriated'' under regimes that have vested private 
property rights in water right holders.
    As municipal and industrial water use increase relative to older 
agricultural uses, the demand becomes more inelastic. A farmer can 
forgo a crop year when water supplies are tight; a municipal water 
system cannot cut back or shut down without serious consequences to the 
community served.
    Water demands are growing not only for traditional uses, but for 
non-traditional uses associated with so-called in-stream values for 
water quality, recreation, wildlife habitat and aesthetic purposes. 
Water for increasing energy needs is expected to exacerbate demands on 
available supplies. Unquantified Indian water right claims represent 
further demands on water bodies throughout the West. Such competing 
demands as the public's rising concern for meeting ``quality of life'' 
and environmental objectives create water supply management challenges 
in times of normal precipitation. Drought exacerbates these challenges.
    Although drought visits some part of the country every year and 
causes billions of dollars in impacts, there does not exist a permanent 
national policy to prepare for and respond to drought disasters. At the 
federal level, droughts have historically been treated as unique, 
separate events--even though they are always a part of the natural 
variation of nature--and frequent, significant droughts of national 
consequences are inevitable in the years ahead. Actions are taken 
mainly through special legislation and ad hoc measures rather than 
through a systematic and permanent process, as occurs with other 
natural disasters. Frequently, federal funding to assist states has 
been unavailable, or not available in a timely manner.

What are the major strengths and weaknesses of drought monitoring and 
forecasting information currently provided by the National Oceanic and 
Atmospheric Administration and other federal agencies? How do states 
use this information to inform water resource management decisions?

    Drought planning and mitigation by state water management agencies 
and water managers depend upon the gathering of high quality 
information related to a variety of physical, environmental and human 
conditions. Characterization of drought requires a combination of two 
types of information:

        1.  Observations of past and current physical states of the 
        environment and their context within the relevant historical 
        record.

        2.  Documented impacts on human and natural systems that are a 
        consequence of the physical conditions.

    It requires a network of scientists to maintain the physical 
observing system, collect and analyze the data, and collect and 
synthesize the information on drought impacts. These observations must 
meet data quality standards for siting, performance and maintenance.
    The physical information needed by states and water managers 
includes observations of precipitation, soil moisture, snow water 
content and snow depth, soil and air temperatures, humidity, wind speed 
and direction, and solar radiation. Currently, the placement of soil 
temperature and soil moisture measurements is too sparse, and 
nonexistent in many areas, for effective use. The greatest current data 
shortfalls are on the local (city/county) and state levels. Physical 
information and drought impact information at these levels is almost 
impossible to obtain in a uniform manner across the nation. Drought 
information needs also differ greatly by region. In the West, for 
example, mountain snowpack is a critical component of water supply. It 
is thus essential to generate and distribute the best estimates 
possible of the water content of snow on the ground, snowmelt, and 
snow-to-vapor sublimation.
    Current efforts at drought management depend upon data that are 
scattered throughout numerous federal, State, regional and local 
agencies. The Department of Agriculture's (USDA) Natural Resources 
Conservation Service (NRCS) manages snowpack information, the Army 
Corps of Engineers (COE) and Bureau of Reclamation (BOR) manage 
reservoir storage data, NOAA manages hydroclimatic data, Interior's 
Geological Survey (USGS) has ground water and streamflow information, 
and the Environmental Protection Agency (EPA) manages various water 
quality programs in concert with the States and tribes. Regional and 
State entities also provide considerable data and information services 
used for drought analysis in real time. These programs have generally 
evolved independently, require separate appropriations and, until 
recently, have not been available to users at a central location due to 
their complexity and the absence of tools to accomplish data 
integration.
    The information produced by federal and non-federal partners that 
is critical to drought monitoring and prediction poses a problem for 
many users. The information is often technical, complex and typically 
is not presented in a standardized format. Many potential users do not 
even know some drought resources exist.
    Weather and climate observations have limited value if they cannot 
become part of a larger drought risk mosaic. A wide variety of data 
networks currently exist throughout the U.S. Many of these networks 
transmit their observations with telecommunications that balance 
frequency and reliability with operation and maintenance costs. A large 
number of hydroclimatic observations, including the USGS streamflow 
network, are transmitted in near real-time by satellites (GOES). In the 
mountainous West, where data transmissions are often blocked by 
mountains, the meteor-burst technology used by the NRCS SNOTEL (SNOw 
TELemetry) network provides a reliable and cost-effective real-time 
data transmission method. In areas where terrain is not a constraint to 
data transmission, innovative partnerships have been established to 
``piggy-back'' climate data over existing data networks. In Oklahoma, 
the Oklahoma Climatological Survey (OCS) has a partnership with the 
Oklahoma Law Enforcement Telecommunications System (OLETS) allowing the 
transmission of its Mesonet data through police, fire and emergency 
management offices throughout the state.

How would the proposed National Integrated Drought Information System 
(NIDIS) improve the quality and usefulness of the drought monitoring 
and forecasting information provided by the Federal Government?

    NIDIS will bring together a variety of observations, analysis 
techniques and forecasting methods in an integrated system that will 
support drought assessment and decision-making at the lowest 
geopolitical level possible. The tools will allow users to access, 
transform and display basic data and forecasts across a range of 
spatial and temporal scales most suited to their individual needs.
    NIDIS will provide drought information through the Internet in an 
interactive environment. The Internet will allow quick, convenient, 
frequent, and low-cost assessments of drought risk by users. Access to 
immediate drought information will be of continuing benefit, since 
drought impacts vary by time of year. On-demand risk analysis will 
provide the lead time needed to implement appropriate economic 
strategies to reduce drought impacts. Many people are aware of the need 
for water conservation and other measures during drought. But once 
drought is over, old habits tend to dominate. The benefits of sustained 
public awareness will be realized through NIDIS.
    No systematic collection and analysis of social, environmental and 
economic data focused on the impacts of drought within the United 
States exists today. Examples of data that could be collected include 
drought-related relief payments; mental health visits in drought-
stricken areas; losses of revenue due to low water, ranging from river 
rafting guide revenues to barge tonnage; reduced hydropower production; 
increased ground water pumping costs for agriculture and municipal 
purposes; revenues from fish camp and canoe outposts; golf course 
revenue; agricultural yield losses not eligible for relief payments 
(e.g., nurseries); skier days and snow-related tourism revenue; and 
ecological impacts data such as water quality, and impacts from 
wildland fires; etc. Because such data either are not centralized or 
not collected, officials often under-estimate economic and social costs 
related to drought.
    NIDIS will fill that gap by developing methodologies to collect and 
assess the social, environmental and economic impacts of drought across 
the United States. These methodologies will also develop assessments 
from sectors not always at the forefront, such as the livestock, 
timber, wildlife, energy, recreation and tourism sectors. Understanding 
these impacts of drought will empower users and expand the 
comprehension of the full magnitude of drought losses. By so doing, it 
will encourage local, State and federal officials to increase efforts 
in drought planning, preparation, and mitigation. Comprehensive 
baseline data on drought impacts also will help to verify the relative 
cost effectiveness of ``risk'' versus ``crisis-management'' approaches 
to drought management.
    Drought-related research is critical in the production of 
innovations and technology that lead to improved drought preparedness. 
Currently a coordinated and integrated drought research program does 
not exist at the national level, despite the enormous impact of 
droughts every year on the Nation's economy, society and the 
environment. Currently, drought research is scattered across many 
agencies, universities, and other research institutions, without formal 
coordination or planning to maximize the value of the research dollars 
spent and without effort to ensure that the priority needs of the 
public and decision-makers are being addressed. The simple act of 
coordinating drought research within and between levels of government, 
as well as with private entities and universities, will help accelerate 
the development and provision of scientifically-based information 
products, thereby, enabling users to better prepare for, manage and 
respond to the impacts of drought.

Please provide specific comments on H.R. 5136, the National Integrated 
Drought Information System Act of 2006.

    On June 21, 2004, the Western Governors unanimously adopted a 
report developed in partnership with the National Oceanic and 
Atmospheric Administration (NOAA) entitled Creating a Drought Early 
Warning System for the 21st Century: The National Integrated Drought 
Information System (NIDIS). In the report, the Governors conclude that 
``Recognition of droughts in a timely manner is dependent on our 
ability to monitor and forecast the diverse physical indicators of 
drought, as well as relevant economic, social and environmental 
impacts.'' The report describes the vision for NIDIS and offers 
recommendations for its implementation. It is available online at 
www.westgov.org.
    The National Integrated Drought Information System (NIDIS) 
authorized by H.R. 5136 would coordinate and integrate a variety of 
observations, analysis techniques and forecasting methods in a system 
that will support drought assessment and decision-making at the lowest 
geopolitical level possible. NIDIS will provide water users across the 
board--farmers, ranchers, utilities, tribes, land managers, business 
owners, recreationalists, wildlife managers, and decision-makers at all 
levels of government--with the ability to assess their drought risk in 
real time and before the onset of drought, in order to make informed 
decisions that may mitigate a drought's impacts.
    The Western Governors' Association and Western States Water Council 
support the National Integrated Drought Information System Act of 2006, 
and urge its enactment. The Western states believe that enactment of 
NIDIS will help move the country toward a proactive approach that will 
avoid conflicts and minimize the damage caused by future droughts, 
thereby saving taxpayers money.
    There is broad basis of support for NIDIS beyond the WGA report:

        <bullet>  In its May 2000 report to Congress, the National 
        Drought Policy Commission recommended improved ``collaboration 
        among scientists and managers to enhance the effectiveness of 
        observation networks, monitoring, prediction, information 
        delivery, and applied research and to foster public 
        understanding of and preparedness for drought.''

        <bullet>  The Department of the Interior's report, Water 2025: 
        Preventing Crises and Conflict in the West States, ``As part of 
        the effort to establish the National Drought Monitoring 
        Network, Interior believes that one-stop shopping for Western 
        water users on a single government web site will aid in problem 
        solving, particularly in critical areas. Such a site can 
        provide information on snowpack, runoff, river operations, 
        forecasting, and drought prediction.''

        <bullet>  The U.S. Group on Earth Observations has drafted a 
        strategic plan for the U.S. Integrated Earth Observation System 
        (IEOS), the U.S. contribution to the Global Earth Observation 
        System of Systems (GEOSS). The IEOS Strategic Plan identifies 
        the National Integrated Drought Information System as one of 
        six ``near-term opportunities.''

        <bullet>  In June 2005, the Subcommittee on Disaster 
        Reduction--an element of the President's National Science and 
        Technology Council--issued its report, Grand Challenges for 
        Disaster Reduction. The report finds ``Compared to all natural 
        hazards, droughts are, on average, the leading cause of 
        economic losses.'' The SDR report states: ``The slow onset of 
        drought over space and time can only be identified through the 
        continuous collection of climate and hydrologic data. To 
        enhance decisions and minimize costs, drought warning systems 
        must provide credible and timely drought risk information 
        including drought monitoring and prediction products.'' The 
        report includes a recommendation to ``build and deploy a 
        national instrument system capable of collecting climate and 
        hydrologic data to ensure drought can be identified spatially 
        and temporally, and develop an integrated modeling framework to 
        quantify predictions of drought and drought impacts useful in 
        decision-making.''

        <bullet>  The President's FY '07 budget request includes $7.8 
        billion for NIDIS implementation and support.

Conclusion

    As we approach summer, many of our western states--and much of the 
country--are seeing areas in drought. According to NOAA, about 26 
percent of the contiguous U.S. is currently affected by moderate-to-
extreme drought. Much of the Southwest had less than normal winter 
snowpack at the end of March, despite heavy snow during the month of 
March. Additionally, the January-March period was the fifth warmest 
ever recorded in the U.S., largely due to a record warm January.
    We are already seeing the impacts of drought in 2006. According to 
the National Interagency Fire Center, there have been 32,988 fires 
between January 1 and April 24 on 2,195,768 acres. This compares to the 
five-year average for this time period of 23,639 fires on 485,308 
acres.
    We know from our past experiences, the costs of response efforts to 
drought have been staggering. The estimated cost of the 1988-1989 
drought was $39 billion nationwide and was, at the time, the greatest 
single year hazard-related loss ever recorded. On average, the Federal 
Government spends $6-$8 billion on drought response. Federal wildfire 
suppression costs averaged $1.16 billion per year between 2000-2005. 
Additionally, much time and money have gone into trying to address the 
water conflicts arising in many of the large river systems in the West, 
including the Missouri River, the Colorado River, the Rio Grande, the 
Klamath River Basin, and the Snake River Basin.
    The Western Governors and Western States Water Council believe that 
improved drought monitoring and forecasting is fundamental to a 
proactive approach to addressing not only drought, but water shortages. 
The National Integrated Drought Information System authorized by H.R. 
5136 will allow policy-makers and water managers at all levels of the 
private and public sectors to make more informed and timely decisions 
about water resources in order to mitigate or avoid the impacts from 
droughts. On behalf of the Western Governors' Association and the 
Western States Water Council, I would like to commend Representative 
Hall and Representative Udall for introducing the National Integrated 
Drought Information System Act of 2006. The Western States urge its 
enactment this Congress.

                      Biography for Duane A. Smith
    DUANE A. SMITH holds a Bachelor's degree in meteorology from the 
University of Oklahoma. He joined the Oklahoma Water Resources Board in 
1978 and during the past 28 years has served as hydrologist, Chief of 
the Groundwater Division, and Assistant Director.
    Appointed OWRB Executive Director in April 1997, Mr. Smith oversees 
the management of the agency's five action divisions that carry out the 
programs entrusted to the Oklahoma Water Resources Board. One of the 
Board's most successful programs is its billion-dollar Financial 
Assistance Program, designed to assist Oklahoma communities and rural 
water districts in meeting financial needs to provide good quality 
water to Oklahomans.
    During his tenure in the Groundwater Division, Duane was 
instrumental in the development of the state's well driller's licensing 
program--now including 357 drillers and pump contractors and 650 
operators and an on-line database of 35,000 well logs. Under Mr. 
Smith's direction, the Board has developed and implemented the 
Beneficial Use Monitoring Program (BUMP), the state's first monitoring 
program designed to document beneficial use impairments, identify 
impairment sources, and detect water quality trends.
    Mr. Smith is Oklahoma Commissioner to three of Oklahoma's 
interstate stream compacts; Oklahoma representative to the Interstate 
Oil and Gas Compact Commission, and serves as Chairman of the Oklahoma 
Weather Modification Advisory Board. He serves on the state's Drought 
Response Team, and as Chairman of the External Advisory Board to the 
MESONET Council. Mr. Smith was appointed by Governor Henry to represent 
Oklahoma on the Western States Water Council, where he serves most 
recently as Vice-Chairman.

    Chairman Ehlers. Thank you. Mr. Dierschke.
    Mr. Dierschke. Good morning, Mr. Chairman and Members of 
the Committee. My name is Kenneth Dierschke, and I am President 
of the Texas Farm Bureau.
    Chairman Ehlers. Is your microphone on?
    Mr. Dierschke. Well, now it is. Is that right?
    Chairman Ehlers. Yeah.
    Mr. Dierschke. Okay.
    Chairman Ehlers. We need it for the transcription service.

   STATEMENT OF MR. KENNETH DIERSCHKE, PRESIDENT, TEXAS FARM 
                             BUREAU

    Mr. Dierschke. Okay. And I am President of the Texas Farm 
Bureau, and I am here today on their behalf. I am a cotton and 
grain farmer from San Angelo, Texas, and I appreciate the 
opportunity to speak today in support of H.R. 5136, the 
National Integrated Drought Information System Act of 2006. 
This legislation, when enacted, will be of significant benefit 
to agriculture producers, as well as the various State and 
federal agencies working to address weather monitoring systems.
    For the record, let me state, in part, the American Farm 
Bureau policy regarding the National Weather Service. ``We 
support accurate, timely reporting of weather information, and 
the maintenance and adequate funding of current weather 
analysis and information dissemination systems. We encourage 
federal, State, and private agencies to work to improve these 
systems and the coordination of user support and federal funds 
to assure continuity and improvement.''
    Last summer, Hurricanes Katrina and Rita ploughed into the 
Gulf Coast with all the fury that Mother Nature could muster. 
The images of this catastrophe were powerful, and delivered to 
every home in America. Americans and our government rightly 
responded with unprecedented levels of assistance for the 
crippled Gulf Coast.
    There is now another catastrophe unfolding across a large 
part of the Nation. Part of it is playing out in my home State 
of Texas. Drought is literally squeezing the life out of Texas 
agriculture. This disaster is different from hurricanes. Only 
after weeks and months does its effects begin to become 
apparent. It is not only when a spark bursts into flame the 
tinder dry grass, consuming homes, barns, livestock, and human 
lives does the public hear much about it, again, through the 
vivid images of our television screens.
    The Texas fires have been graphic evidence of the drought, 
but the burning countryside is only one symptom of this 
catastrophe. In Texas, the economic input of the drought will 
be more than match the effects of Hurricane Rita, the Category 
Five storm that hit our Gulf Coast. The Texas Cooperative 
Extension Service estimates that over $1 billion damage was 
done to the agricultural community in 2005, with additional 
losses caused by the wildfires in the Texas panhandle in March 
of this year. Over one million acres of range and grassland was 
destroyed, with thousands of miles of fence, animals, buildings 
destroyed in a little more than a week.
    Drought is a slow motion disaster. It is a slow and 
creeping death for plant and animal life, and potentially, for 
the agriculture industry. Each day without rainfall deepens the 
crisis for the farm and ranch families. In 2005, more than 200 
of Texas' 254 counties were designated disaster areas due to 
weather-related events. Unfortunately, during the last decade 
and a half, this has become a very common occurrence.
    On the Internet, there is a website called Drought Monitor. 
It paints an interesting picture, stage by stage, graphically 
showing how this monster drought has consumed more and more of 
this countryside with each passing day. Altogether, some 20 
states are impacted.
    While some of our State has been fortunate to receive some 
rainfall in the recent months, the State as a whole is still in 
a drought situation. Specifically, the Rio Grande Valley and 
along the South Texas coast has already lost most of its 2006 
crop. Producers will be depending on insurance payments to keep 
them afloat in 2007.
    When farm and ranchlands are in the grip of a severe 
drought, there are many levels of damage. There is the 
tremendous loss of crop, but also, in the case of rangeland, it 
can take many years of careful management and the cooperation 
of Mother Nature to set things right again.
    Today, our focus is on drought preparedness and 
recognition. While this is not an attempt to cast blame, 
current technology does not provide information necessary for a 
producer to avoid the impact of droughts. The strength of our 
weather information system is a very high accuracy for its 
short-term predictions. The weakness is in that these highly 
accurate forecasts do little to prepare farmers and ranchers 
for the impact of extended periods of drought or other weather-
related disasters. By the time the news of the rain front is 
reported, decisions have been made, crops have been lost, an 
economic disaster becomes a companion of the natural disaster.
    The Farm Bureau supports the funding of research by NOAA to 
improve the ability to more accurately forecast these 
catastrophic events. Refining the techniques that can identify 
these events would truly be an asset to the agriculture 
industry.
    The frequency of drought and the weather-related disasters 
is changing our culture in ways that are difficult to 
anticipate. In our view, H.R. 5136 is an investment in new 
technology and systems that will benefit the Nation far beyond 
an individual farm or ranch. But speaking for those farmers and 
ranchers, Congressman Hall's bill will certainly help us 
prepare for an all too uncertain future.
    Farmers and ranchers across much of Texas the grim 
possibility that there may very little to harvest in Texas this 
year. We hope that we can salvage enough of this crop year, 
with various forms of assistance and aid, so that there can be 
another year beyond the dismal conditions we face now. If we 
can more accurately predict the next drought cycle, our 
planning and preparation will improve as well.
    I thank you for the opportunity to be here, and look 
forward to your questions.
    [The prepared statement of Mr. Dierschke follows:]
                Prepared Statement of Kenneth Dierschke
    Mr. Chairman, and Members of the Committee, my name is Kenneth 
Dierschke. I am President of the Texas Farm Bureau and I am here today 
on their behalf. I am a cotton and grain farmer from San Angelo, Texas. 
I appreciate the opportunity to speak today in support of H.R. 5136, 
the National Integrated Drought Information System Act of 2006. This 
legislation, when enacted will be of significant benefit to agriculture 
producers as well as the various state and federal agencies working to 
address weather monitoring systems.
    For the record, let me state, in part, the American Farm Bureau 
Policy regarding the National Weather Service.

         ``We support accurate, timely reporting of weather information 
        and the maintenance and adequate funding of current weather 
        analysis and information dissemination systems. We encourage 
        federal, state and private agencies to work to improve these 
        systems and the coordination of user support and federal funds 
        to assure continuity and improvement.''

    Last summer, Hurricanes Katrina and Rita plowed into the Gulf Coast 
with all the fury that Mother Nature can muster. The images of this 
catastrophe were powerful and delivered to every home in America. 
Americans and our government rightly responded with unprecedented 
levels of assistance for the crippled Gulf Coast.
    There is now another catastrophe unfolding across a large part of 
the nation. Part of it is playing out in my home State of Texas. 
Drought is literally squeezing the life out of Texas agriculture. This 
disaster is different from hurricanes--only after weeks and months does 
its effect begin to become apparent. It's only when a spark bursts into 
flame in the tinder dry grass, consuming homes, barns, livestock and 
human lives, does the public hear much about it--again through the 
vivid images on our television screens.
    The Texas fires have been graphic evidence of the drought, but the 
burning countryside is only one symptom of this catastrophe. In Texas, 
the economic impact of the drought will more than match the effects of 
Hurricane Rita, the Category Five storm that hit our Gulf Coast. The 
Texas Cooperative Extension Service estimates that over $1 billion 
damage was done to the agricultural economy in 2005, with additional 
losses caused by the wildfires in the Texas panhandle in March of this 
year. Over one million acres of range and grassland was destroyed with 
thousands of miles of fence, animals, and buildings destroyed in a 
little more than a week.
    Drought is a slow motion disaster--it's a slow and creeping death 
for plant and animal life and potentially for the agricultural 
industry. Each day without rainfall deepens the crisis for the farm and 
ranch families. In 2005 more than 200 of Texas' 254 counties were 
designated disaster areas due to weather related events. Unfortunately, 
during the last decade and a half, this has been a very common 
occurrence.
    On the Internet, there is a web site called ``Drought Monitor.'' It 
paints an interesting picture, stage by stage, graphically showing how 
this monster drought has consumed more and more of the countryside with 
each passing day. Altogether, some 20 states are impacted.
    While some of our state has been fortunate to receive some rainfall 
in the recent months, the state as a whole is still in a drought 
situation. Specifically, the Rio Grande Valley and along the South 
Texas coast has already lost most of the 2006 crop. Producers will be 
depending on insurance payments to keep them afloat until 2007.
    When farm and ranch lands are in the grip of a severe drought, 
there are many levels of damage. There is the immediate loss of a crop, 
but also, in the case of range land, it can take many years of careful 
management and the cooperation of Mother Nature to set things right 
again.
    Today, our focus is on Drought preparedness and recognition. While 
this is not an attempt to cast blame, current technology does not 
provide information necessary for a producer to avoid the impact of 
droughts.
    The strength of our weather information system is the very high 
accuracy of its short term predictions. The weakness is that these 
highly accurate forecasts do little to prepare farmers and ranchers for 
the impact of extended periods of drought or other weather related 
disasters. By the time the news of a rain front is reported, decisions 
have been made, crops have been lost and an economic disaster becomes a 
companion of the natural disaster.
    The Farm Bureau supports the funding of research by NOAA to improve 
the ability to more accurately forecast these catastrophic events. 
Refining the techniques that can identify these events would truly be 
an asset to the agricultural industry.
    The frequency of drought and weather related disaster is changing 
agriculture in ways that are difficult to anticipate. In our view, H.R. 
5136 is an investment in new technology and systems that will benefit 
the nation far beyond an individual farm or ranch. But speaking for 
those farmers and ranchers, Congressman Hall's bill will certainly help 
us prepare for an all too uncertain future.
    Farmers and ranchers across much of Texas face the grim possibility 
that there may be very little to harvest in Texas this year. We hope 
that we can salvage enough of this crop year with various forms of 
assistance and aid so that there can be another year beyond the dismal 
conditions we face right now. If we can more accurately predict the 
next drought cycle, our planning and preparation will improve as well.
    I appreciate the opportunity to be here today, and will be happy to 
address any questions from the Committee.

                    Biography for Kenneth Dierschke
    Kenneth Dierschke's love of agriculture boils down to the ``smell'' 
thing. The strong, musky odor of sandy clay loam soil and its promise 
to grow food and fiber has kept this San Angelo producer motivated 
through the unpredictable ups and downs of full-time farming since 
1974.
    Yes, the freedom and independence farming offers are important to 
Dierschke. But it's the aroma of agriculture that draws him back to the 
tractor seat at spring planting time year after year.
    ``The biggest reward is just the smell of freshly turned soil, and 
knowing there's going to be a new day,'' this cotton and grain farmer 
from Wall, east of San Angelo, says of the profession he loves.

FB background

    The importance of Farm Bureau to agriculture dawned on Dierschke 
when he was just 18. Fresh out of high school, young Dierschke attended 
a Farm Bureau membership meeting in Waco with his dad, Norman, who had 
been on the Tom Green County Farm Bureau Board for several years.
    ``I went to Waco and I think some of the things I heard then were 
very instrumental in my feelings about Farm Bureau,'' Dierschke says.
    That was in the late spring of 1960. Forty-three years later, 
Dierschke recalls his father's influence in shaping his participation 
in the state's largest farm organization: ``When I came back into 
farming, he said, `You need to be involved in Farm Bureau. They're a 
very good tool. If you want somebody else to make your decisions for 
you, go farm and don't get involved. But if you want to influence 
anything that happens as far as your occupation, you better get 
involved with Farm Bureau, because they're the voice of agriculture.' 
''
    It was advice that has been central to Dierschke's philosophy 
throughout his many years of Farm Bureau involvement. He first served 
on the Tom Green County Farm Bureau board in 1975 and was immediately 
elected President.
    Dierschke was on the first TFB National Affairs trip to Washington 
in the 1970s where he found the importance of becoming politically 
active.
    He was later called by former TFB President S.M. True to serve on 
the Blue Ribbon Goals Committee, where the organization was studied and 
a number of changes made.
    ``I was on the Blue Ribbon Goals Committee when AGFUND was 
established,'' Dierschke says of Farm Bureau's political action arm, 
noting the involvement of other Farm Bureau leaders including former 
TFB president and present American Farm Bureau Federation President Bob 
Stallman, current State Director Don Smith, and former State Directors, 
Bob Turner, Jimmie Ray Adams and Dan Pustejovsky. ``We thought it was 
very important to become involved in the legislative process. We were 
getting an audience with legislators but we weren't being heard. Now I 
think we have a much better rapport with all the legislature.''
    Dierschke became State Director for District 6 in 1996, when former 
State Director Bill Tullos retired. He became Vice President of Texas 
Farm Bureau in December 2000.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Thank you for your comments.
    I would just like to point out there is obviously a fair 
amount of disagreement in this nation about global warming, 
which I always refer to as global climate change because it 
encompasses much more than warming, but with the information 
that I have read, drought is going to be a continuing problem, 
but the interesting thing is that it will shift to locations 
that are now quite verdant and receive plenty of water, and 
that is something we all should be concerned about. We hope 
that prediction is not correct, but you may be a forerunner of 
something that is going to concern a lot more people than 
America, if we don't--aren't careful about preserving our water 
resources and using water wisely. I have a brother-in-law who 
is a cotton farmer. I know very well how important it is to 
get--not only to have water, but to have it at the right time, 
and not have it come at the wrong time.
    Mr. Waage.

  STATEMENT OF MR. MARC D. WAAGE, MANAGER, RAW WATER SUPPLY, 
                 DENVER WATER, DENVER, COLORADO

    Mr. Waage. Good morning. My name is Marc Waage, and I am 
the Manager of Raw Water Supply for Denver Water in Colorado.
    As a water manager and a regular user of federal drought 
information, I would like to address how NIDIS could provide 
vital improvement to how we manage droughts. Denver Water is a 
municipal agency that supplies water to 1.2 million people in 
the Denver area, making it the largest supplier of drinking 
water in Colorado. We operate in a semi-arid climate with 
highly variable streamflow. To lessen the impacts of drought, 
we have developed a large raw water collection system in the 
Rocky Mountains west of Denver.
    Parts of Colorado have been in drought for the last six 
years. In 2002, Denver's watersheds received the lowest runoff 
in approximately 200 to 300 years. Denver's reservoirs dropped 
to only 43 percent of capacity, and water use was restricted 
for three years, while we recovered storage levels. Operating 
through this experience has made me keenly aware of the 
advantage of better drought information.
    During the drought, we relied heavily on snowpack and 
weather information from various federal agencies. Most 
critical to us were the streamflow forecasts from these 
agencies. We used this information to predict how much water we 
would have, how to budget the use of that water, and to guide 
our operations. These decisions affected not only our 
customers, but environmental and recreational interests, 
mountain watershed communities, and others within our system.
    I would like to highlight four ways that NIDIS could help 
us better prepare for the next drought. First, NIDIS could 
create an Internet clearinghouse to make existing drought 
information more accessible and understanding. In a drought, 
timely and reliable information is key to making good 
decisions. As we discovered during the drought, information is 
spread across many federal agencies, and many times, in cryptic 
technical language that is difficult to understand. NIDIS could 
help better inform all those affected by drought.
    Second, NIDIS could help federal agencies educate and 
interact with those affected by drought. A good model is the 
Western Water Assessment Program of NOAA, which uses teams of 
experts to assist water managers in the Intermountain West. It 
has allowed us to interact with drought researchers, to make 
better use of their research, and to provide feedback on our 
research needs.
    Third, NIDIS could provide the vital forecasts that we use 
in droughts. Those are streamflow runoff forecasts, and long-
range weather outlooks. NOAA's River Forecast Centers could 
provide more hydrometeorological monitoring of high elevation 
watersheds like ours, and combine that information with 
existing remote sensing of snowpack conditions, to provide more 
accurate streamflow forecasts in the smaller basins in which 
most water systems operate.
    Long-range weather forecasts could also be improved by 
developing smaller scale prediction models. This was done on an 
experimental basis for Colorado by the Climate Diagnostic 
Center of NOAA. Their forecasts are closely followed by water 
users and media in Colorado. Denver Water funded research at 
the University of Utah to use sea and atmospheric conditions in 
the fall to produce a prediction of the volume of spring 
runoff. In the fall of 2001, the model predicted a low runoff 
was coming. This forecast supported our decision to stop using 
water for hydropower generation, saving us precious water 
before the start of the drought.
    Fourth, NIDIS could help water suppliers better manage the 
impacts from population growth and climate change. To provide 
water for the booming populations of Colorado and other areas 
in the West is stressing our natural stream systems. Climate 
change threatens to exacerbate these problems, by making 
droughts longer and more severe. A common response to these 
problems is to increase water conservation goals. For systems 
like Denver's, this means there would be less non-essential 
water that could be cut off during droughts, thereby making the 
system even more vulnerable to drought. The result would be 
more frequent and more severe water rationing. Improved 
forecasts could help minimize the amount of rationing used 
during droughts.
    In summary, NIDIS would provide the proactive and 
coordinated federal approach that water managers need to cope 
with droughts.
    [The prepared statement of Mr. Waage follows:]
                  Prepared Statement of Marc D. Waage

Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting me to address the important issue of drought 
monitoring and preparedness. I manage the operation of a large water 
collection system and I am a regular user of drought information 
provided by federal agencies. From that perspective, I would like to 
address why federal drought preparedness is so important, how federal 
drought information is used now and how the proposed National 
Integrated Drought Information System (NIDIS) could provide the much 
needed improvements in drought information to help water managers 
better cope with droughts.

1.  Why is Drought Preparedness and Monitoring Important to Denver 
Water?

    I work for Denver Water which is a municipal agency that supplies 
water to 1.2 million people in the Denver area. We are the largest 
supplier of drinking water in the state, providing service to about one 
of every four residents of Colorado. We operate in a semi-arid climate 
characterized by low precipitation and variable streamflow. On average, 
Denver receives only 15 inches of precipitation per year. Snowmelt from 
the mountains to the west of Denver provides most of the city's supply. 
But that supply is highly variable. The natural streamflow of the South 
Platte River above Denver has ranged from 227 percent of average in wet 
years to 16 percent of average in drought years.
    To reduce its vulnerability to drought, Denver Water collects water 
from 3,600 square miles of watersheds, transporting water up to 80 
miles using three water tunnels under the Continental Divide to store 
water in 16 reservoirs, most of which are used for drought 
augmentation. [See Exhibit ``A''--map of water system]. My job is to 
operate that water system and to make sure it does not run out of 
water.
    Parts of Colorado have been in a drought for the last six years. In 
2002, Denver's watersheds received the lowest runoff in approximately 
200 to 300 years. Denver's storage reservoirs dropped to 43 percent of 
capacity--the lowest level in 38 years, and three years of drought 
restrictions were required to refill reservoirs to normal levels. 
Operating through this experience has made me keenly aware of the value 
of timely, accurate, and understandable drought information.

2.  What Drought Information Does Denver Water Use?

    Most of Denver Water's supply comes from mountain snowmelt. During 
the recent drought, my staff and I made frequent use of snowpack, 
streamflow, weather, and forecast information from various federal 
agencies plus information from the State of Colorado and our own 
monitoring. Below is a list of the most frequently used drought data.

        A.  Snowpack Monitoring

                1)  NRCS. Manual and automated Snotel site information 
                from the Natural Resource Conservation Service (NRCS) 
                of the U.S. Department of Agriculture. The State office 
                of the NRCS provides a wide array of web-based daily 
                snowpack, weather data and useful displays that are 
                heavily used throughout the state by all types of water 
                interests. Denver Water provides manual measurements of 
                snowpack and some funding for Snotel sites. These data 
                are used in all levels of operations.

                2)  NOAA. Later in the drought we were made aware of a 
                National Oceanic and Atmospheric Administration (NOAA) 
                product called the Snow Data Assimilation System 
                (SNODAS). As described by NOAA:

                    ``SNODAS is a modeling and data assimilation system 
                developed by the NOHRSC to provide the best possible 
                estimates of snow cover and associated variables to 
                support hydrologic modeling and analysis. The aim of 
                SNODAS is to provide a physically consistent framework 
                to integrate snow data from satellite and airborne 
                platforms, and ground stations with model estimates of 
                snow cover.''

                    SNODAS provides important visual information on 
                snowpack conditions and holds promise for improving 
                water supply projections.

        B.  Streamflow Monitoring

                1)  USGS. The U.S. Geological Survey provides near 
                real-time web-based streamflow monitoring. Denver Water 
                provides annual cost-share funding of the measuring 
                sites. This system is heavily used by water interests 
                throughout the state.

                2)  State. The State of Colorado provides near real-
                time web-based streamflow monitoring. It also 
                incorporates USGS and other streamflow monitoring. This 
                system is also heavily used throughout the state.

        C.  Storage Reservoir Monitoring. Data comes primarily from 
        Denver Water monitoring, plus some state and federal reporting.

        D.  Weather Monitoring

                1)  NWS. The National Weather Service provides daily 
                measurements of temperature and precipitation through 
                its cooperative weather program. Denver Water is a 
                cooperator and measures temperature and precipitation 
                in the city and throughout its watersheds. These 
                measurements are used to understand past water supply 
                and use patterns and to make streamflow forecasts.

                2)  NRCS. Denver Water makes use of the Natural 
                Resource Conservation Service's Snotel sites to track 
                snowpack, precipitation and soil moisture in near real 
                time. Denver Water financially supports a number of 
                these sites and measures snowpack at other sites for 
                the NRCS.

                3)  CoCoRaHS. This acronym stands for Community 
                Collaborative Rain and Hail Study. CoCoRaHS provides 
                high density daily precipitation data that helps us 
                estimate short-term changes in water supply and use. 
                The Colorado Climate Center runs this program with 
                financial support from Denver Water and other users.

        E.  Weather and Climate Forecasts (Short- and Long-Range)

                1)  NWS. The National Weather Service provides short-
                term weather forecasts that are useful for projecting 
                near-term water supply and use.

                2)  CPC. The Climate Prediction Center (part of the 
                Physical Science Division of NOAA's Earth System 
                Research Laboratory) provides long-range temperature 
                and precipitation outlooks and other endeavors. These 
                forecasts give Denver Water an understanding of the 
                weather that is expected during the next one to six 
                months and helps us with our planning.

                3)  CDC. The Climate Diagnostic Center, which is 
                jointly funded by NOAA and the University of Colorado, 
                supports research on long-range weather forecasting and 
                other endeavors. Denver Water uses experimental 
                forecasts produced by the CDC.

                4)  Private Meteorologist. Denver Water monitors long-
                range weather forecasts provided by a meteorologist 
                with HDR Engineering, Inc.

        F.  Streamflow Forecasts

                1)  NRCS and NWS. These two agencies provide joint 
                forecasts of seasonal snowmelt volumes. These forecasts 
                are vital for managing water in the West.

                2)  CBRFC. The Colorado Basin River Forecast Center (a 
                division of NWS) produces valuable probabilistic daily 
                streamflow forecasts.

        G.  Drought Indices

                1)  NOAA. The Drought Monitor and Drought Outlook are 
                occasionally used to display the progression and the 
                extent of drought to non-technical audiences.

3.  How Is the Drought Information Used?

    The drought information described above is used to prepare short- 
and long-term operating plans for Denver Water's system. These are the 
critical forecasts that are used to predict water supply availability, 
budget water use, and guide operations during droughts.
    The drought information is regularly used by staff, board members, 
media, customers and the public to access the status of droughts. Below 
are examples.

        A.  Denver Water management staff and board members use the 
        information to determine water use restrictions and set water 
        rates and surcharge prices during droughts.

        B.  Large customers using water for parks, schools, golf 
        course, car washes, and various manufacturing processes use the 
        information to meet water budgets enacted during droughts.

        C.  Media, customers, and the public use the information to 
        monitor water supply conditions during droughts.

        D.  Recreational interests, environmental interests, government 
        agencies, and mountain watershed communities use the 
        information to monitor streams, reservoirs, and supply 
        conditions within Denver Water's system during droughts.

4.  How Can NIDIS Improve the Quality and Usefulness of Drought 
Monitoring and Forecasting Information Provided by the Federal 
Government?

        A.  Create an Internet Portal of easily accessible and 
        understandable drought information.

            During the drought, my staff and I have spent countless 
        hours combing the web to identify all the drought information 
        that is spread across many federal agencies. Much of the 
        information is in cryptic technical language. It is quite 
        difficult for casual users to access and understand this 
        information. Non-technical users would greatly benefit from an 
        Internet portal. During the record drought year of 2002, my 
        staff and I spent considerable time collecting and 
        disseminating information on the drought to our management 
        staff and board members, the media, water customers, watershed 
        communities, environmental and recreational interests, and the 
        general public. The Internet portal would promote much greater 
        understanding by all those affected by drought. Denver Water's 
        customers live many miles from their watersheds and there can 
        be a great disparity between the weather in the watersheds and 
        the city. The Internet portal would help link city residents to 
        the droughts affecting their watersheds. This portal could also 
        reduce time my staff and I spend explaining drought conditions 
        to board members, media, interest groups, customers, and the 
        public.

        B.  Educate and Interact With Those Affected by Drought.

            Drought information can be hard to find and understand. The 
        Western Water Assessment (WWA) (a cooperative venture funded by 
        the Regional Integrated Sciences and Assessments Program of 
        NOAA) uses multidisciplinary teams of experts in climate, 
        water, law, and economics to assist water-resource decision 
        makers in the Intermountain West. This program has increased 
        Denver Water's understanding and use of federally available 
        drought information. This is done through water conferences and 
        other contacts with water users in Colorado. The WWA has 
        allowed us to interact with scientists working on drought 
        issues to make better use of federal research and to provide 
        feedback on research needs. The WWA program could be a model 
        for NIDIS for expanding education and interaction with those 
        affected by drought.

        C.  Increase Monitoring in Watersheds.

            In 2002, Denver's watersheds produced the lowest runoff in 
        approximately 200 to 300 years. Winter snowpack levels were low 
        but not as low as in previous drought years. However, the 
        spring was exceptionally hot and dry. Rather than producing 
        streamflow, much of the snowpack was consumed by sublimation 
        (evaporation), vegetation, and soil recharge. Unfortunately, 
        there was very little scientific monitoring of the watersheds 
        to know the extent to which this was occurring. Without 
        watershed monitoring, there was little early warning of the 
        severe drought to come. As a result, watering restrictions were 
        not fully enacted until well into the summer. Also, there was 
        little warning that spring conditions in the watershed would 
        produce the Hayman forest fire in June which was the worst in 
        Colorado's recorded history. Along with record low streamflow, 
        the massive fire caused serious water quality problems for 
        Denver Water. Using NIDIS to monitor soil moisture, wind speed, 
        humidity, solar radiation and model-based analysis of these 
        data would help provide an early drought warning for our 
        watersheds. Watershed monitoring could also be incorporated 
        into forecast products as described below.

        D.  Improve Existing Products.

            Below are examples of how NIDIS could be used to improve 
        existing drought information products.

                1)  Improve Streamflow Forecasts. Streamflow forecasts 
                are key indicators for managing water supplies in the 
                West during droughts. Below are examples of 
                improvements that could be made to forecasts provided 
                by federal agencies.

                        (a)  Incorporate New Watershed Monitoring. The 
                        data from better watershed monitoring as 
                        described above could be incorporated into 
                        streamflow forecast models to fill a critical 
                        gap in dry year predictions and provide a much 
                        needed early warning system.

                        (b)  Upgrade Models Used by the River Forecast 
                        Centers. Denver Water has had a long 
                        partnership with the Colorado Basin River 
                        Forecast Center (CBRFC) of the NWS to 
                        demonstrate the value of daily probabilistic 
                        streamflow forecasts in water system 
                        operations. The benefits include helping 
                        recover endangered fish, improving 
                        environmental and recreational conditions on 
                        rivers, maximizing hydropower and reducing the 
                        risk of flooding in non-drought years. 
                        Improving and incorporating SNODAS data 
                        described above into the CBRFC streamflow model 
                        could increase forecast accuracy in the smaller 
                        sub-basins of the Colorado River in which most 
                        of the water systems operate. The Missouri 
                        Basin River Forecast Center is developing a 
                        daily streamflow forecast model for the South 
                        Platte River above Denver. The model holds 
                        promise for improving Denver Water's water 
                        operations in the South Platte Basin much as it 
                        has in the Colorado River Basin.

                2)  Improve Drought Indices. Making the indices more 
                understandable, accurate and relevant to drought 
                management will increase their use with both technical 
                and non-technical users. Plain language should be used 
                to explain the indices.

                3)  Improve Long-Range Weather and Climate Forecasts.

                        (a)  Seasonal Climate Outlook. Developing a 
                        more understandable format than the tercile 
                        method and providing a plain language 
                        explanation of the accuracy and skill of the 
                        product could improve confidence in and use of 
                        the product.

                        (b)  Localized Forecasts. Developing smaller 
                        scale prediction models may increase the 
                        accuracy, skill and usefulness of long-term 
                        weather forecasts. The Climate Diagnostic 
                        Center of NOAA produces an experimental 
                        seasonal weather forecast for southwestern 
                        states including Colorado. These forecasts are 
                        carefully followed by water users and the 
                        media. Denver Water funded research at the 
                        University of Utah to use sea and atmospheric 
                        conditions in the fall to produce a 
                        probabilistic prediction of the volume of the 
                        spring runoff. In the fall of 2001 the model 
                        predicted a low runoff in the spring of 2002. 
                        This forecast supported our decision to stop 
                        releasing reservoir water for hydropower 
                        generation, saving precious water before what 
                        turned out to be the driest year on record. 
                        Overall, forecasts of drought onset, duration, 
                        severity, and end could be extremely helpful in 
                        the future.

5.  How Can NIDIS Help with Population Growth and Climate Change?

    The need to provide water for the booming population of Colorado 
and other areas in the West is stressing natural stream systems and 
available water resources. The adverse impacts include the transfer of 
water from agricultural to municipal use. The demand for improved river 
environments and recreational opportunities increases with population 
growth. Climate change threatens to exacerbate these problems by making 
droughts longer and more severe.
    A common response to the problems of population growth and climate 
change is to increase water conservation goals. When conservation is 
used by cities that depend on surface water to supply their growing 
populations, the increased efficiency of water use can greatly lower 
their ability to reduce water use in droughts. In other words, there is 
less non-essential water use to be cut off during droughts, thereby 
making the cities even more vulnerable to drought. This could lead to 
more frequent and more severe water use restrictions and water 
rationing.
    NIDIS would provide the proactive and coordinated federal approach 
to droughts that water managers need to cope with the added impacts of 
population growth and climate change.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Marc D. Waage
    Marc Waage is the Manager of Raw Water Supply for Denver Water. He 
has been in this position for 18 years. Mr. Waage is responsible for 
meeting the water needs of 1.2 million people in the Denver area 
through the operation of an extensive raw water collection and storage 
system on the eastern and western slopes of Colorado. His primary 
challenge is to manage a scarce resource to meet municipal water needs 
while providing environmental, recreational and economic benefits to 
source watersheds. Mr. Waage also directs various water planning and 
management projects.
    Mr. Waage worked briefly for the Bureau of Reclamation and the 
Bureau of Indian Affairs on water management projects. He is a 
professional civil engineer and has a Bachelor's and Master's degree in 
civil engineering from Colorado State University, with a specialty in 
water resource engineering. Marc is a member of the American Society of 
Civil Engineers and the American Water Resources Association.

    Chairman Ehlers. Thank you. Dr. Wilhite.

STATEMENT OF DR. DONALD A. WILHITE, DIRECTOR, NATIONAL DROUGHT 
           MITIGATION CENTER, UNIVERSITY OF NEBRASKA

    Dr. Wilhite. Good morning, Mr. Chairman and Members of the 
Committee. I am Don Wilhite, founder and Director of the 
National Drought Mitigation Center, located at the University 
of Nebraska Lincoln. I appreciate this invitation to discuss 
drought and drought management in the United States, the need 
to move this nation to a more risk-based management approach to 
lessen our vulnerability to this creeping natural hazard, and 
the role of the National Integrated Drought Information System, 
or NIDIS, in this process.
    The National Drought Mitigation Center was formed in 1995. 
At the time, there was no national initiative or program that 
focused on drought monitoring, mitigation, and preparedness. 
The NDMC is unique. Our full attention is devoted to building 
awareness of and reducing vulnerability to the drought hazard. 
In the past eleven years, we have made considerable progress, 
but much work remains.
    Some of the important accomplishments of the National 
Drought Mitigation Center include development of an Internet 
drought portal that provides users with comprehensive 
information on all aspects of the drought hazard, networking 
with federal and non-federal agencies on drought monitoring, 
mitigation, and preparedness, participation in a partnership 
with NOAA and the U.S. Department of Agriculture on the 
development of the U.S. Drought Monitor product, and hosting 
the U.S. Drought Monitor portal since its inception in 1999, 
assisting states, tribal, and local governments in the 
development of drought plans. Currently, 38 States have drought 
plans, and an increasing number are stressing mitigation over 
the reactive crisis management approach. Most of these States 
have used a drought planning methodology developed by the 
National Drought Mitigation Center.
    Development of the Nation's first drought impact database, 
the web-based Drought Impact Reporter, which allows us to track 
drought impacts across the United States, research and 
development on drought monitoring tools to aid decision-makers, 
development of a new interactive, web-based decision support 
tools for agricultural producers, natural resource managers, 
and others, and conducting drought planning workshops and 
conferences throughout the United States. We are, in fact, co-
sponsoring a National Drought Conference, which is going to be 
in Colorado this fall.
    It is often said that drought is not purely a physical 
phenomenon, but rather an interplay between climate, human 
activities, and the environment. This is a key point. Although 
drought is a natural hazard, the way we manage or mismanage 
water and other natural resources determines, to a large 
extent, our vulnerability to drought. Therefore, improving 
drought management is not only about improvement, monitoring 
and prediction. It is also about understanding and assessing 
our vulnerabilities and managing risk. Improved early warning 
and prediction alone will do little to reduce drought risk. We 
must deliver this information to natural resource managers and 
policy-makers in a timely manner, and demonstrate how this 
information can be applied in the decision-making process. We 
must conduct risk assessments to determine our vulnerabilities, 
and apply this knowledge to the development of comprehensive 
drought mitigation plans.
    I am a strong supporter of NIDIS. NIDIS has the potential 
to significantly advance the science of drought monitoring and 
management in the United States. The NDMC has been involved in 
the evolution of this concept from the very beginning. I 
presented the final report on the NIDIS project to the Western 
Governors referred to earlier, in June of 2004. Given the 
NDMC's scientific expertise on drought, and our strong linkages 
to the user community, the NDMC can be a valuable partner to 
NOAA in the implementation of NIDIS in the coming years.
    There is currently considerable technical capability in 
federal agencies, universities, and elsewhere, on drought 
monitoring, forecasting, mitigation, and preparedness. The 
challenge is to harness this capability, and direct it towards 
improving drought management. A key challenge for NIDIS and 
NOAA, as the implementing agency, is to assess this capability, 
coordinate the efforts of these agencies and organizations, and 
integrate this knowledge and technology into a drought early 
warning system and information system.
    Improving drought monitoring, forecasting capabilities, 
mitigation, and preparedness also requires additional focused 
research. This research needs to be accomplished in a 
collaborative environment, because of the interdisciplinary 
nature of drought monitoring and management.
    I have a few technical comments on H.R. 5136, and I have 
provided these to members of your staff. Mr. Chairman, this 
concludes my testimony. I wish to thank you for the opportunity 
to discuss the programs of the National Drought Mitigation 
Center, my vision on how improved management in the United 
States can occur, and how NIDIS can enhance this effort.
    Thank you.
    [The prepared statement of Dr. Wilhite follows:]
                Prepared Statement of Donald A. Wilhite
    I appreciate the opportunity to submit this statement to the House 
Committee on Science. My name is Don Wilhite; I am the founder and 
Director of the National Drought Mitigation Center (NDMC), located at 
the University of Nebraska in Lincoln. The National Drought Mitigation 
Center (NDMC) was formed in 1995 following a sequence of severe drought 
years between 1987 and 1994 that affected virtually all portions of the 
United States. At the time of the NDMC's formation, there was no 
national initiative or program that focused on drought monitoring, 
mitigation, and preparedness. I have been involved in drought-related 
research and outreach since 1980. My efforts have principally been 
focused on how to lessen the Nation's vulnerability to drought through 
improved monitoring and early warning, mitigation, and preparedness. We 
have made considerable progress, but much work remains. The National 
Integrated Drought Information System (NIDIS) has the potential to help 
improve the Nation's capacity to cope more effectively with severe 
drought episodes that create significant impacts on the Nation's 
economic, environmental, and social fabric.
    It is imperative to point out that drought is a normal part of the 
climate for virtually all parts of the United States. For this reason, 
we need to be prepared for droughts, and focus our attention on 
mitigation and planning strategies that would reduce impacts before 
drought strikes. On average, approximately 15 percent of the Nation is 
affected by drought each year, based on the historical record from 1895 
to present. This drought record illustrates both single- and multi-year 
events; in particular the droughts of the 1930s, 1950s, 1960s, 1974-77, 
1987-94, and 1996 to present are noteworthy for their intensity, 
duration, and spatial extent. During the most recent drought period, 
35-40 percent of the country was affected and for some regions drought 
conditions persisted for five or more years. For example, parts of the 
southeast, particularly Georgia, North Carolina, South Carolina, and 
Florida experienced three to four consecutive years of drought between 
1999 and 2002. States all along the east coast from Maine and New York 
to Florida were seriously affected in 1999. In the west, much of the 
southwest, especially Arizona and New Mexico, experienced five 
consecutive years of drought between 2000 and 2004 while much of 
Montana, Idaho, and surrounding states experienced severe drought for 
as many as seven consecutive years since 1999. My state, Nebraska, has 
experienced six consecutive years of drought.
    Before I elaborate more broadly on the programs of the National 
Drought Mitigation Center and the changes necessary to shift the 
paradigm from crisis to risk management in the United States, I would 
first like to respond to questions submitted to me by the House 
Committee on Science.

1.  Describe the drought monitoring and forecasting information 
currently provided by NOAA, other federal agencies, and the National 
Drought Mitigation Center. Also describe the functions of the National 
Drought Mitigation Center and how it differs from the proposed National 
Integrated Drought Information System (NIDIS).

    NOAA, other federal agencies, and the NDMC each provide a broad 
suite of products and services for drought monitoring and forecasting. 
For example, NOAA is responsible for the collection of weather data 
from multiple networks across the country. They also archive that data 
for the purpose of tracking climate trends and describing climate 
characteristics. NOAA is also responsible for issuing forecasts for 
multiple time scales, usually classified as short-, medium-, and long-
range. Other federal agencies also play an important role in drought 
monitoring and forecasting. For example, the U.S. Geological Survey 
monitors stream flow through a comprehensive network of stream gauging 
stations across the country. They also monitor ground water levels. 
USDA's Natural Resources Conservation Service (NRCS) is responsible for 
monitoring snowpack in the western states through a network of stations 
known as SNOTEL. The Corps of Engineers and the U.S. Bureau of 
Reclamation are both responsible for the operation and monitoring of 
reservoirs across the country. These reservoirs provide a critical 
buffer in water-short years in both the east and west. There are many 
other climate and water monitoring networks in existence at the State, 
regional, and national levels.
    Drought differs significantly from other natural hazards. It is a 
slow-onset hazard and it is difficult to determine when it begins and 
ends or reaches its maximum severity. There is also no single 
definition of drought. There are literally hundreds of definitions in 
existence. Drought definitions are usually application (or impact) and 
region specific. Drought, unlike other natural hazards, can persist for 
many months or years. Managing water supplies through extended periods 
of precipitation deficiency is a considerable challenge for water and 
natural resource managers. Drought also differs from other natural 
hazards in terms of the spatial extent of the affected area. For 
example, during the 2002 drought, 40 percent of the Nation was in 
severe to extreme drought. In 1934, severe to extreme drought affected 
65 percent of the Nation. Finally, the impacts of drought are largely 
non-structural and seldom result in loss of life, at least in the 
United States. However, FEMA has estimated annual losses at $6-$8 
billion, making drought the Nation's most costly natural hazard.
    Why is this information relevant in responding to this question? 
These characteristics of drought present a unique challenge for drought 
monitoring. Although it is true that all droughts originate from a 
deficiency of precipitation, to characterize drought intensity, 
duration, spatial extent, and impacts, it is necessary to integrate 
information from many different indicators. These indicators are 
precipitation, temperature, soil moisture, snowpack, stream flow, 
ground water levels, reservoir and lake levels, and vegetation. 
Forecasts, both meteorological and hydrological, are also important. 
Impacts are diverse and occur in many sectors, including agriculture, 
tourism and recreation, forests, transportation, health, energy, and 
the environment. Since the responsibility for monitoring and reporting 
information from these multiple indicators and sectors is fragmented 
between many federal and non-federal entities, an effective national 
drought monitoring and early warning system must analyze and integrate 
all of this information into a suite of user-oriented products and 
deliver them to decision-makers from local to national levels in a 
timely manner. This is the challenge for NIDIS.
    How does the National Drought Mitigation Center differ from NIDIS? 
The NDMC's program is directed at lessening societal vulnerability to 
drought through a risk-based management approach. The NDMC does not 
operate monitoring networks, as is the case with NOAA, USGS, and USDA. 
Our program's primary goal is to shift the emphasis of drought 
management in the United States from a crisis-based approach to a risk-
based approach. This can be accomplished through improved drought 
planning and a greater emphasis on mitigation actions and programs. 
However, in order for a drought mitigation plan to be effective, it is 
dependent on a timely and reliable assessment of climate and water 
supply conditions and an accurate depiction of current and projected 
impacts. The NDMC has played the role of catalyst in improving drought 
monitoring in the United States by bringing federal, State, and 
regional entities together with a common purpose--providing better and 
timelier information to decision-makers. For example, as one of the 
original partners in the U.S. Drought Monitor with NOAA and USDA, we 
have improved awareness of drought conditions and potential impacts in 
the scientific and policy communities and the general public. This 
product has fostered greater coordination and cooperation between 
scientists in federal and non-federal agencies and institutions, 
leading to the development of other new tools to aid in assessing 
climate and water supply conditions. Without the NDMC's leadership in 
drought monitoring, mitigation, and preparedness, I do not believe we 
would be discussing NIDIS today.
    To elaborate further on the NDMC's activities, the Center promotes 
and conducts research and outreach activities on drought monitoring, 
mitigation, and preparedness technologies; strives to improve 
coordination of drought-related activities and actions within and 
between levels of government; and assists in the development, 
dissemination, and implementation of appropriate mitigation and 
preparedness technologies in the public and private sectors. Emphasis 
is placed on research and outreach projects and mitigation/management 
strategies and programs that stress risk management measures rather 
than reactive, crisis management actions. It has been demonstrated that 
crisis management responses, such as drought relief, actually decrease 
self-reliance and, therefore, increase vulnerability to future drought 
episodes. Mitigation and preparedness increase self-reliance and reduce 
vulnerability. Programs that provide incentives for mitigation and 
preparedness are a very good investment for government at all levels 
and for the private sector as well. It has been demonstrated that for 
every dollar invested in mitigation and preparedness, four dollars are 
saved through reduced impacts when a natural disaster occurs. It is 
imperative that we shift the emphasis from crisis to risk management, 
as illustrated by the cycle of disaster management (Figure 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To respond effectively to the Nation's needs for drought early 
warning, mitigation, and preparedness, the NDMC has been conducting 
research and outreach activities since 1995 in the following areas:

        <bullet>  Developing and enhancing an information clearinghouse 
        or web-based drought portal on drought early warning, impact 
        assessment, mitigation, preparedness, and response options for 
        decision-makers.

        <bullet>  Conducting and fostering collaborative research on 
        drought monitoring, risk management, impact and vulnerability 
        assessment, mitigation, and preparedness techniques and 
        methodologies.

        <bullet>  Assisting State and federal agencies, tribal and 
        local governments, and regional organizations in developing 
        integrated assessments of drought severity and impacts, 
        including current climate/drought and water supply assessments.

        <bullet>  Advising policy-makers and others by providing 
        scientific and policy-relevant information on drought and water 
        management issues.

        <bullet>  Organizing workshops, conferences, and seminars on 
        drought preparedness planning and mitigation measures to reduce 
        vulnerability to drought.

        <bullet>  Collaborating with and providing training for 
        international scientists and facilitating the timely exchange 
        of information on drought mitigation technologies with foreign 
        governments, international and non-governmental organizations, 
        and regional organizations.

2.  How would the NIDIS improve the quality and usefulness of the 
drought monitoring and forecasting information provided by the Federal 
Government?

    NIDIS would provide the mechanism to improve monitoring networks, 
standardize climate and water data currently available from federal and 
non-federal agencies, promote coordination and cooperation between 
agencies, increase the variety of decision support tools available to 
decision-makers, and lead to the development of a drought information 
portal or portals to deliver these data and information to scientists 
and decision-makers at all levels through an interactive interface. 
NIDIS would promote increased research on drought monitoring and early 
warning, forecasts, impact assessment techniques, and mitigation tools 
and preparedness methodologies. It would also promote research on 
improving our understanding of societal vulnerability to drought from 
farm to national level.

3.  What are the major data management, monitoring, and research 
components of NIDIS and what specific actions are needed to fully 
implement those components?

    As stated previously, effective drought monitoring requires a wide 
variety of data to accurately assess the intensity, duration, spatial 
extent, and impacts associated with drought. These data requirements 
include climate parameters such as precipitation and temperature and 
other hydrologic indicators such as stream flow, reservoir and lake 
levels, ground water, soil moisture, and snowpack. It is also important 
to better understand the strengths and weaknesses of current climate 
and water indices and to develop new indices to improve the evaluation 
of drought and water supply conditions. Conducting research to 
determine the linkages between these indices and specific impacts in 
the many sectors that suffer the consequences of drought is also 
important. Understanding these linkages would provide water managers, 
for example, the opportunity to identify thresholds or triggers for 
various mitigation and response actions associated with drought plans. 
Improvements in the reliability of climate and water supply forecasts 
through greater investment in research will provide decision-makers 
with added lead times to adjust management decisions to reflect 
improving or deteriorating conditions. We must also improve our 
understanding of the complexities of drought impacts, develop 
methodologies to improve our assessment of these impacts, and create a 
national database of drought impacts.
    A list of recommendations that address research and information 
needs in drought monitoring, mitigation, and preparedness is provided 
below:

        <bullet>  Implement the National Integrated Drought Information 
        System (NIDIS) through a full partnership between NOAA and 
        other federal agencies, non-federal agencies, and 
        organizations, including the National Drought Mitigation 
        Center, in order to improve monitoring and early warning 
        systems and seasonal climate forecasts to provide better and 
        more timely and reliable information to decision-makers; 
        address data gaps in drought monitoring and enhance networks, 
        particularly for soil moisture, snowpack, and ground water; and 
        develop new monitoring and assessment tools/products that will 
        provide resource managers at all levels with proper decision 
        support tools at higher resolution.

        <bullet>  Improve knowledge of the scientific and policy 
        communities and resource managers about the drought hazard.

                1.  Augment paleoclimate and historical climate 
                research to better understand the drought climatology 
                of all regions for more effective planning and design.

                2.  Communicate information on probabilities of single- 
                and multiple-year drought events to natural resource 
                managers and planners, policy makers, and the public.

        <bullet>  Improve the reliability of seasonal climate forecasts 
        and train end users on how to apply this information to improve 
        resource management decisions with the goal of reducing drought 
        risk.

                1.  Develop more competitive research grant programs to 
                fund research on drought prediction. In particular, 
                there is a need for enhanced observations and research 
                on both the paleoclimate record and the drought-related 
                dynamics of ocean-atmosphere coupling.

        <bullet>  Assess the economic, social, and environmental 
        impacts associated with drought.

                1.  Develop a standard methodology for assessing the 
                impacts of drought on multiple economic sectors and the 
                environment and systematically assess the losses 
                associated with drought events at the local, State, and 
                national levels.

                2.  Evaluate the effect of mitigation actions in 
                reducing the impacts of drought at the local and State 
                level.

                3.  Improve early assessments of drought impacts 
                through the application of appropriate models (i.e., 
                crop, hydrologic).

        <bullet>  Assess the science and technology needs for improving 
        drought planning, mitigation, and response at the local, State, 
        tribal, regional, and national levels.

                1.  Evaluate current drought planning models available 
                to governments and other authorities for developing 
                drought mitigation plans at the State and local levels 
                of government and require plans to follow proposed 
                standards or guidelines.

                2.  Develop improved triggers (i.e., links between 
                climate/water supply indicators/indices and impacts) 
                for the phase-in and phase-out of drought mitigation 
                and response programs and actions during drought 
                events.

                3.  Develop vulnerability profiles for various economic 
                sectors, population groups, and regions and identify 
                appropriate mitigation actions for reducing 
                vulnerability to drought for critical sectors.

        <bullet>  Increase awareness of drought, its impacts, trends in 
        societal vulnerability, and the need for improved drought 
        management.

                1.  Initiate K-12 drought/water awareness programs/
                curriculum.

                2.  Launch public awareness campaigns for adult 
                audiences, directed at water conservation and the wise 
                stewardship of natural resources.

Drought Mitigation, Preparedness, and Policy

    I will elaborate further on some of the key issues associated with 
improving our understanding of drought, drought management, and 
shifting the paradigm from crisis to risk management. Improving drought 
management begins with improving our understanding of vulnerability and 
preparedness. Vulnerability to drought is dynamic and influenced by a 
multitude of factors, including increasing population, regional 
population shifts, urbanization, technology, government policies, land 
use and other natural resource management practices, desertification or 
land degradation processes, water use trends, and changes in 
environmental values (e.g., protection of wetlands or endangered 
species). Therefore, the magnitude of drought impacts may increase in 
the future as a result of an increased frequency of meteorological 
drought, changes in the factors that affect vulnerability, or a 
combination of these elements. The development of a national drought 
policy and preparedness plans at all levels of government that place 
emphasis on risk management rather than following the traditional 
approach of crisis management would be a prudent step for the United 
States to take. Crisis management, as illustrated by the hydro-
illogical cycle in Figure 2, decreases self-reliance and increases 
dependence on government.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The impacts of drought in recent years have been increasing and, it 
appears, at an accelerating rate, although a systematic national 
assessment and database of drought impacts has only recently been 
developed by the NDMC in the form of the web-based Drought Impact 
Reporter tool. FEMA (1995) estimated annual losses in the United States 
because of drought at $6-$8 billion, making drought the most costly 
natural disaster in the country. Losses from the 1988 drought have been 
estimated at more than $39 billion. The NDMC has estimated that losses 
associated with the 2002 drought exceeded $20 billion. It is important 
to note that these are estimates for a single drought year, while major 
drought events often occur over a series of years, as noted previously.
    The impacts of drought have also been growing in complexity. 
Historically, the most significant impacts associated with drought have 
occurred in the agricultural sector (i.e., crop and livestock 
production). In recent years, there has been a rapid expansion of 
impacts in other sectors, particularly energy production, recreation 
and tourism, transportation, forest and wildland fires, urban water 
supply, environment, and human health. The recent drought years in the 
western United States, for example, have resulted in impacts in non-
agricultural sectors that have likely exceeded those in agriculture. In 
addition to the direct impacts of drought, there are also significant 
indirect impacts that, in most cases, would exceed in value the direct 
losses.
    In the past decade or so, drought policy and preparedness has 
received increasing attention from governments, international and 
regional organizations, and non-governmental organizations. Simply 
stated, a national drought policy should establish a clear set of 
principles or operating guidelines to govern the management of drought 
and its impacts. Creation of a national drought policy is one of the 
goals of the National Drought Preparedness Act (S. 802; H.R. 1386), and 
the National Integrated Drought Information System (NIDIS) is a 
component of this bill. National drought policy should be consistent 
and equitable for all regions, population groups, and economic sectors 
and consistent with the goals of sustainable development and the wise 
stewardship of natural resources. The overriding principle of drought 
policy should be an emphasis on risk management through the application 
of preparedness and mitigation measures. Preparedness refers to pre-
disaster activities designed to increase the level of readiness or 
improve operational and institutional capabilities for responding to a 
drought episode. Mitigation refers to short- and long-term actions, 
programs, or policies implemented in advance of and during drought that 
reduce the degree of risk to human life, property, and productive 
capacity. These actions are most effective if done before the event. 
Emergency response will always be a part of drought management because 
it is unlikely that government and others can anticipate, avoid, or 
reduce all potential impacts through mitigation programs. A future 
drought event may also exceed the ``drought of record'' and the 
capacity of a region to respond. However, emergency response should be 
used sparingly and only if it is consistent with longer-term drought 
policy goals and objectives.
    A national drought policy should be directed toward reducing risk 
by developing better awareness and understanding of the drought hazard 
and the underlying causes of societal vulnerability. The principles of 
risk management can be promoted by encouraging the improvement and 
application of seasonal and shorter-term forecasts, developing 
integrated monitoring and drought early warning systems and associated 
information delivery systems, developing preparedness plans at various 
levels of government, adopting mitigation actions and programs, and 
creating a safety net of emergency response programs that ensure timely 
and targeted relief. A key element of an effective drought policy is 
the delivery of information in a timely manner so informed decisions 
can be made by resource managers and others. Creation of a user-
friendly drought information system is one of the principal goals of 
NIDIS.
    The traditional approach to drought management has been reactive, 
relying largely on crisis management. This approach has been 
ineffective because response is untimely, poorly coordinated, and 
poorly targeted to drought-stricken groups or areas. In addition, 
drought response is post-impact and relief tends to reinforce existing 
resource management practices. It is precisely these existing practices 
that have often increased societal vulnerability to drought (i.e., 
exacerbated drought impacts). The provision of drought relief only 
serves to reinforce the status quo in terms of resource management 
(i.e., it rewards poor resource management and the lack of preparedness 
planning.)
    In the United States, there has been some progress in addressing 
the impacts of drought through the development of preparedness plans. 
The most noticeable progress has been at the state level, where the 
number of states with drought plans has increased dramatically during 
the past two decades. In 1982, only three states had drought plans--New 
York, Colorado, and South Dakota. In 2006, thirty-eight states have 
drought plans. The basic goal of state drought plans should be to 
improve the effectiveness of preparedness and response efforts by 
enhancing monitoring and early warning, risk and impact assessment, and 
mitigation and response. Plans should also contain provisions (i.e., an 
organizational structure or framework) to improve coordination within 
agencies of State government and between local and Federal Government. 
Initially, State drought plans largely focused on response efforts 
aimed at improving coordination and shortening response time; today the 
trend is for states to place greater emphasis on mitigation as the 
fundamental element of a drought plan. Thus, some plans are now more 
pro-active, adopting more of a risk management approach to drought 
management.
    The growth in the number of states with drought plans suggests an 
increased concern at that level about the potential impacts and 
conflicts associated with extended water shortages and an attempt to 
address those concerns through planning. Initially, states were slow to 
develop drought plans because the planning process was unfamiliar. With 
the development of drought planning models, such as the 10-step drought 
planning process developed at the NDMC, and the availability of a 
greater number of drought plans for comparison, drought planning has 
become a less puzzling process for states. As states initiate the 
planning process, one of their first actions is to study the drought 
plans of other states to compare methodology and organizational 
structure.
    The rapid adoption of drought plans by states is also a clear 
indication of their benefits. Drought plans provide the framework for 
improved coordination within and between levels of government. Early 
warning and monitoring systems are more comprehensive and integrated 
and the delivery of this information to decision-makers at all levels 
is enhanced. Many states are now making full use of the Internet to 
disseminate information to a diverse set of users and decision-makers. 
Through drought plans, the risks associated with drought can be better 
defined and addressed with proactive mitigation and response programs. 
The drought planning process also provides the opportunity to involve 
numerous stakeholders early and often in plan development, thus 
increasing the probability that conflicts between water users will be 
reduced during times of shortage. All of these actions can help to 
improve public awareness of the importance of water management and the 
value of protecting our limited water resources.
    Drought mitigation plans have three essential components, 
regardless of whether they are developed at the State, national, 
regional, or local scale. First, a comprehensive monitoring and early 
warning system provides the basis for many of the decisions that must 
be made by a wide range of decision-makers as drought conditions evolve 
and become more severe. Equally important, early warning systems must 
be coupled to an effective delivery system that disseminates timely and 
reliable information. As drought plans incorporate more mitigation 
actions, it is imperative that these actions be linked to thresholds 
(e.g., reservoir levels, climate index values) that can serve as 
triggers for mitigation and emergency response actions. Second, a 
critical step in the development of a mitigation plan is the conduct of 
a risk assessment of vulnerable population groups, economic sectors, 
and regions. The purpose of risk assessment is to determine who and 
what is at risk and why. This is successfully accomplished through an 
analysis of historical and recent impacts associated with drought 
events. This risk assessment task is accomplished as part of the 10-
step drought planning process developed by the NDMC. Third, after 
impacts have been identified and prioritized, the next step is to 
identify appropriate mitigation actions that can help to reduce the 
risk of each impact for future drought events. In many cases, 
appropriate response actions are also identified through this process, 
but these actions should not conflict with the basic goal of the 
drought mitigation plan: to reduce vulnerability to drought events. As 
noted earlier, some response actions may increase reliance on 
government and encourage the continuation of inappropriate resource 
management practices.

Summary

    The National Drought Mitigation Center at the University of 
Nebraska-Lincoln strongly supports greater investment in research and 
policies directed at reducing this nation's vulnerability to drought 
through a more risk-based approach. The implementation of NIDIS is a 
critical step in this direction. Improved climate and water 
assessments, more reliable forecasts at various time scales, better 
decision-support tools, and more timely communication of this 
information to decision-makers through an interactive delivery system 
will greatly enhance management of water and other natural resources. 
The NDMC will help NOAA develop an implementation plan for NIDIS and 
partner with them and other federal and non-federal entities to ensure 
the success of this program. My years of experience with drought 
management have convinced me that a wise initial investment in improved 
monitoring, early warning and prediction, mitigation, and planning will 
reduce this nation's vulnerability to drought and concomitant impacts 
on economies, the environment, and the social well-being of its 
citizens.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Donald A. Wilhite
    Dr. Donald A. Wilhite is Director of the National Drought 
Mitigation Center (NDMC) and Professor and Associate Director, School 
of Natural Resource Sciences, the University of Nebraska-Lincoln. Dr. 
Wilhite has more than 20 years of experience in the areas of drought 
monitoring, planning and mitigation and has worked with State, federal 
and regional organizations as well as with numerous foreign governments 
and international organizations. The NDMC is one of the partner 
institutions for the U.S. Drought Monitor, a weekly map illustrating 
drought conditions in the U.S. He is also leading efforts to establish 
regional drought preparedness networks throughout the world under 
sponsorship of several agencies of the United Nations. Dr. Wilhite 
holds a Ph.D. degree from the University of Nebraska-Lincoln in 
geography, an M.A degree from Arizona State University-Tempe and a B.S. 
degree from Central Missouri State University-Warrensburg.

                               Discussion

    Chairman Ehlers. Thank you, and thank you to all the 
witnesses for their testimony. We certainly appreciate your 
comments.

                     Implementation and the Future

    At this point, we will open our first round of questions, 
and the Chair recognizes himself for five minutes.
    The first question I have, and maybe the only question, 
given the time constraint, is about what happens, assuming this 
bill passes and the National Integrated Drought Information 
System is put in place, what happens after that? NOAA is known 
for doing a good job with all aspects of issues relating to 
weather, and related issues. I am sure they will do a fine job 
on the drought program.
    As we well know, just because NOAA forecasts something 
doesn't mean people respond, whether it is a gale coming across 
the Great Lakes, or a hurricane hitting the south coast, and 
what is really important is once the data is produced and given 
out, what will you do? What do you see happening after that? 
How do we coordinate the reaction so that meaningful steps are 
taken once the data are derived and distributed?
    So, would you envision NOAA as being the agency to 
stimulate this, or do you see that out of all the various 
agencies, federal and otherwise, who receive this information, 
have to be charged with the responsibility for coordinating a 
response once they receive the information?
    I would appreciate your comments on that, and we will go 
right to left this time. Dr. Wilhite?
    Dr. Wilhite. Okay. Thank you very much.
    Well, I see NIDIS as an end to end system, so in this case, 
NOAA is the implementing agency but the success of NIDIS will 
be in its ability to coordinate these activities, and to 
involve not only other federal agencies, but other non-federal 
agencies. And so, the key is not only developing the data and 
the information, and making that available, and that would come 
from multiple sources, through either one or multiple drought 
portals on the Internet, but also, in delivering this 
information to people, and making sure that they are aware that 
the information is available, but also, working with them in 
the development of some of these decision support tools. 
Because to not involve users in the development of the tools 
will most likely lead to the fact that they won't use the 
tools, and so, I think they have to be involved from the 
outset. So, I see this as a coordinated end to end system, and 
the word integrated in National Integrated Drought Information 
System is really the key word here, bringing this all together 
from the sciences, scientists at the--at one level delivering 
this information to users, and complete interaction between 
them.
    Chairman Ehlers. Do you believe the States have in place 
the agencies and the programs necessary to properly use the 
data that will be----
    Dr. Wilhite. I think in general, the State agencies do 
exist. The key here is, I mean, since 38 States now have 
drought plans, they all have a coordinated or organizational 
framework, each of those 38 States, on how to use this kind of 
information. So, I think the agencies are available. I think 
the problem with dealing with drought is that water management 
and monitoring and decision-making is so fragmented between 
different agencies, at the federal level, and at the State 
level, that it is important to tie all these together, which is 
one of the goals of a drought plan, is to put in place an 
organizational framework, and I think NIDIS will help develop 
that organizational framework at the national level, but it 
will have to connect to, you know, the various states and state 
agencies, and then down to local utilities and so forth, at the 
user level.
    Chairman Ehlers. Thank you. Mr. Waage.
    Mr. Waage. Yeah. Well, I would like to answer that from my 
own experience of trying to collect information during the 
drought. I really think the best way to disseminate that 
information is through this Internet portal. Most of the 
decision-makers in a drought are not technical people. They are 
non-technical people. They don't understand these concepts. 
They don't have a lot of time to search for information, and 
making that information easily understood and easily accessed, 
I think will go a long way toward use, and I think if all the 
federal agencies were to promote a single portal for that 
information, that could all be, all these users could be 
funneled to one area, where they could find what they are 
looking for.
    Chairman Ehlers. Mr. Dierschke.
    Mr. Dierschke.One place portals will work for us, probably, 
because we depend a lot on the weather in our business, and I 
don't want to be searching for a hundred different places to 
find out something that is going to be affecting my livelihood. 
So, I would like to see the one portal, probably directed to 
national, to the State, to an Internet site, I think will 
really work for agriculture.
    Chairman Ehlers. Mr. Smith.
    Mr. Smith. I agree with everything that is said, and I 
would like to bring this to, I think, one of the points that we 
are working on specifically in Oklahoma, and this is a 
comprehensive, statewide water plan.
    In the last 30 years in Oklahoma, we have had above average 
precipitation, if you look at the five year weighted average, 
it has been above average precipitation for the last 30 years 
in Oklahoma. That has led people--now that we enter a drought, 
the drought of 2006, where we now have lake levels that are 
down at 50 percent, in some cases. We have people that have 
been accustomed to this, and have not planned for this 
variability in climate that surely is to come, and we don't 
understand that very well. The variability in climate is not 
well understood.
    NIDIS will provide that information, provide research to 
help, I think, cities and communities plan for those drought 
times in the future, in terms of water supply.
    Chairman Ehlers. And Dr. Koblinsky.
    Dr. Koblinsky. Thank you, Mr. Chairman, and thank you for 
your kind words about NOAA and its abilities to work and 
develop the information observing system on this.
    I am reminded, with your question, of a note in Everett 
Rogers' books on the diffusions of innovations, and he was 
talking about the development of the Green Revolution, and 
conveying modern agriculture information to farmers in the 
States, and he was doing this at the time, I believe, at the 
University of Iowa or Iowa State, and he was fascinated by the 
idea that while they were making great strides on the research 
side on improving agriculture as he drove home at night, and 
looked at the farmers, he didn't see the application of the new 
technology, and they grew quite concerned about how to actually 
make this transfer of knowledge to the people that could 
actually use that.
    And I think in this case with drought we are approaching 
that same sort of challenge, and I think that NIDIS needs to 
face that challenge and will. I think you have heard a lot of 
the ideas we have for building the end to end system, the 
observing systems, the data information, the research to 
improve predictions, the work on impacts, the work on decision 
support tools. I think a challenge we will face is the 
evaluation of the system. I don't think we have quite gotten 
there yet with climate decision support activities, and that is 
something, I think, that NIDIS could begin to work on. Within 
NOAA, we see NIDIS as a tremendous opportunity to develop 
climate service in an integrated fashion, and propagate it even 
further than we have done with seasonal triennial forecasts, 
and providing that information.
    And I think there is a real opportunity here to evaluate 
the system, and build an evaluation system into NIDIS, to 
understand its impact on the communities, and the best way of 
transferring this new technology and information to the user. 
And I look forward to doing that with the other agencies and 
the States. We are looking forward, right now, to holding a 
short workshop at the beginning of the summer, to engage 
interested parties, a small group of interested parties, of 
States, regions, and other federal agencies, and formulating a 
draft implementation plan for NIDIS, and that we would follow 
up with more of an all comers workshop in the fall.
    I really sense a tremendous enthusiasm for this system, and 
getting back to your question, I think one issue I would like 
to bring to that group is the need for the evaluation with the 
eventual user, and getting their feedback to make the system 
effective and useful to everyone.
    Thank you.
    Chairman Ehlers. Thank you all for good answers, good 
guidance for us on this.

                                 Scope

    I am now pleased to recognize Mr. Wu for five minutes.
    Mr. Wu. Thank you very much, Mr. Chairman.
    I intend to ask only one question, and then, yield the 
balance of my time to Mr. Udall. And this question is aimed 
principally at Dr. Koblinsky, but anybody else who wants to 
take a stab at it, you are welcome to do so.
    This legislation is focused, or the subject legislation, 
this hearing is focused on drought. We have situations where 
there is too much water, and situations where there is too 
little water. Although the human consequences of too much water 
may be different from too little water, does it make sense to 
have something like NIDIS sort of broaden its scope to look at 
instances of too much water, and forestalling some of those 
consequences, as well as looking at too little water, and 
trying to forestall some of those consequences? So, we are 
looking at any situation that is two or three or four sigmas 
out, rather than, you know, just looking at one side of the 
abnormal curve, if you will.
    Dr. Koblinsky. Thank you for your question, Representative 
Wu.
    I think that this system will provide information that 
would be extremely useful for hydrological forecasting and 
flash floods, over strong precipitation events, et cetera, 
because in principle, it will be monitoring conditions that are 
very useful to the folks that are doing those forecasts for the 
reverse issue that you mentioned, the extreme events of heavy 
precipitation and flooding. And I know that within NOAA, our 
Office of Hydrology, for example, and the Weather Service, will 
be tightly linked, and very much involved for the river 
forecast, monitoring, and improving river forecasts, as part of 
this system.
    And I think that we are talking about developing improved 
observing systems that will help understand groundwater, better 
measurements of soil moisture and conditions. Is the ground not 
only dry, but is it also saturated? Those same measurements 
will give us a sense of saturation, which I know from having 
lived in Oregon myself, is a key issue, as you get into the 
mountain streams, the saturation issue and the overflow of 
water in those streams.
    Snowpack, snow depth, and coverage will be monitored, and 
part of this integration system, so that not only the lack of 
snow, but also, heavy snow conditions would also be picked up 
by this improved monitoring system and used to detect 
conditions and improve conditions, I think, for the opposite of 
drought, which would be early release of the snow, which was an 
issue often, I know, in the Cascades in Oregon, to detect that 
and improve that.
    So, I see this system as, while it is focused on drought, a 
lot of the monitoring system, the information capabilities, 
disseminative information, improvement of predictions will also 
greatly facilitate what we do in hydrological forecasting.
    Thank you.
    Mr. Wu. Terrific. Thank you very much, and I yield the 
balance of my time to Mr. Udall.

                            Decision-making

    Mr. Udall. I thank the gentleman for yielding, as has been 
the case for many weeks here, we have an awfully busy set of 
schedules, trying to compress everything into a couple days. I 
do have another hearing, Mr. Waage, you will be interested, 
with the compensation plan for the Rocky Flats cohort. We are 
trying to do right by those gentlemen and gentlewomen, but if I 
could direct some questions to you.
    Let me run three questions at you, and then give you a 
chance to respond. Could you talk about the decision-making 
structure within Denver Water, as it pertains to water 
management decisions, and then, include in those comments the 
role that the state and/or municipalities play, and how they 
utilize drought monitoring or forecast data? And if you could 
tie that, and I am giving you a big mountain to climb here, 
into what type of products would be most useful from NIDIS in 
that regard?
    Mr. Waage. Sure. I would be glad to address that.
    The decision-making structure at Denver Water is we are 
governed by a board of five citizens of the city of Denver, and 
those are non-technical people that are appointed by our mayor, 
and I think that is a good reason for this drought information 
to be kept in understandable terms. As a water manager, I spend 
a lot of time trying to educate those people, along with the 
media, and our customers, on what is happening with the 
drought. These better informed laypersons are making decisions, 
and having their decisions covered by the media, I think would 
be greatly benefited by just more education overall.
    The role that the State, at least the State of Colorado, 
provides a lot of monitoring as well, streamflow conditions, 
weather conditions. They also have basically a drought 
taskforce that is used to coordinate all of the activities of 
state agencies, but the federal agencies are very active in 
providing forecasts and guidance for those agencies. That is 
information, then, that gets filtered down at the level that 
cities like us use.
    I forgot your last question.
    Mr. Udall. My time--or Mr. Wu's time has expired. We will 
come back around.
    Chairman Ehlers. The gentleman's time has expired. We are 
pleased to recognize Mr. Hall for five minutes.

                             Scope (cont.)

    Mr. Hall. Thank you, Mr. Chairman, and I thank you. Your 
testimony, your written testimony is available to us, and 
available to every Member, and we will use that, as we go along 
and nurse this thing through the legislative process, but to 
get to more practical, I guess that is the reason we get to ask 
you questions, to see how it is going to work in our districts, 
or districts that--or States that we are affected by drought.
    So, Mr. Dierschke, in your testimony, you stated that 
current technology doesn't provide the information that farmers 
need to avoid the impacts of drought, and in your opinion, I 
guess I would like to know what are the most pressing bits of 
practical information needs, that your farmers have, and that 
could be met by the proposed system that we are working on, and 
if you would, provide some specific examples of how the Farm 
Bureau and how local people, farmers and ranchers, and folks 
that you will be working with, that you represent, would make 
use of this information?
    Mr. Dierschke. Okay. Thank you.
    Weather, of course, in Texas, is the biggest problem we 
have. Texas is a big state, that has many different climate 
zones. We go from the tropics, almost, over in East Texas, to 
the desert over in West Texas. So currently, projections on 
drought probably don't go out very far, and we would like to 
see it go out further, so that we can make plans on South Texas 
right now, they were in a crunch when it came to planning time. 
They had no idea what type of seed to plant, or what their 
inputs were going to be. Some of the seed we are planting right 
now, the cost of it is very expensive, and if they would have 
had a little better idea that when it come time to plant, that 
they were not going to, they were going to be in a drought 
situation, they may have changed their plans a little bit.
    Input costs have just gone sky high, fuel, fertilizers, 
they need that technology, so that they can make decisions 
further out on whether they want to buy that fertilizer ahead 
of time, or if they are going to wait and not put it out. So, 
that is some of the things that we need.
    Also, wildlife is getting to be quite a big deal in our 
country with the ranchers. That is a good part of their income 
now, and if we know there is going to be a drought, and we have 
our white-tailed deer out there, and our quail and turkeys out 
there, that we can prepare to be feeding those for our income, 
and I have an ample supply of that wildlife out there, when the 
hunters do come.
    So, those are a few deals, another one is livestock on our 
ranches. If we know there is going to be a drought situation 
coming up, and we know that, say, 180 days ahead of time, well, 
we can cut back our stocking rates, so that we are not out 
there depleting our grasses, that I think I said in my 
testimony, that it takes a number of years for the rains to 
come back, and we are conservationists, and we would like to 
pull those stocking rates down. If we knew that ahead of time, 
we could do that. Of course, if we know there is going to be an 
abundance of moisture, we can also increase our stocking rates, 
too. So, it will help us tremendously.
    There is a lot of technology going on right now on drought 
tolerant crops. If I knew there was going to be a drought in my 
area, I would spend a little bit more money on a drought 
tolerant crop that I could plant, whereas otherwise, I wouldn't 
do it.
    Mr. Hall. I thank you, and I thank you, Mr. Chairman. I 
yield back my time to you.
    Chairman Ehlers. The gentleman yields back the balance of 
his time. We will now recognize Mr. Udall for five minutes on 
his own time.

                        Decision-making (cont.)

    Mr. Udall. Thank you, Mr. Chairman. I turn to Mr. Waage for 
a minute or so.
    I wanted to get a sense of the type of products that NIDIS 
could produce that would be useful to you all, and perhaps, if 
you might include the state in your comments, as well, that is, 
the State of Colorado.
    Mr. Waage. Okay. Well, most of the State's water supply 
comes from snowmelt, and so, critical to us in a drought are 
forecasts of how much supply we are going to get from the 
snowmelt. And the second most critical product is then the 
weather outlook, so that we can manage that supply during the 
summertime.
    And those two--improving those two products, would improve 
our ability to manage water use restrictions. That is really 
the major tool that we have during droughts, to combat dryness, 
is restricting water use. The more we know about how much 
supply we are going to have, and how much demand we are going 
to have from warm or cold weather, we can do a better job of 
making use of what we have.
    And the other thing is, it can help us reduce impacts to 
stream systems by our diversions, by not over-diverting water, 
if we are not going to need it.
    Mr. Udall. Yeah, I would note that in your testimony, in 
the terrible year of 2002, that we had below average snowfall, 
but it didn't seem to present a problem for us, until the 
spring dawned very dry and windy, and we were a little bit 
behind the curve in understanding what that was going to do to 
soil moisture levels, therefore, groundwater levels, and we 
were caught unaware.
    Mr. Waage. Yes.
    Mr. Udall. As we know.
    Mr. Waage. That was a perfect example of how science could 
have helped us have a good early warning. The snowpack wasn't 
as low as other years, but we had exceptionally dry weather. We 
didn't know what was happening to the snowpack, that it was 
melting into--or that it was just sublimating and disappearing. 
More monitoring would give us an early warning of those 
disastrous type years.
    Mr. Udall. Thank you, again, for being here today.

                             Scope (cont.)

    Mr. Smith, if I could turn to you. We have talked about 
monitors that would provide adequate real time information. Do 
you have a sense of the estimated cost to install and maintain 
these networks, and included in that question is, how many do 
you think we would need to have in place?
    Mr. Smith. I don't have a real good idea about cost. It 
varies. I can talk more specifically about Oklahoma. We have a 
MESONET program in Oklahoma, that we believe is one of the best 
monitoring systems in the world. We have sites across Oklahoma 
that monitor weather, soil moisture, all of these types of 
things, and that particular program is available, then, for 
users to buy into, and farmers can actually enroll in this 
program, and pay a fee to use the information, to determine 
when to apply fertilizers, and when to irrigate, and these 
types of things.
    That particular program, off the top of my head, 
Representative Udall, I don't remember the cost of that 
particular program, but as we look at SNOTEL, as we look at 
stream gauges, as we look at all of these types of things, 
putting those together, I think that we can, I think those 
numbers are available, and we can get those to you.
    Mr. Udall. Could you get those to the Committee?
    Mr. Smith. Absolutely, we can. Yes.
    Mr. Udall. I really appreciate that.
    Mr. Smith. Yes.

                               Technology

    Mr. Udall. Dr. Koblinsky, if I could turn to you, Mr. Smith 
talked about, in his testimony, technologies that would 
increase the rate of receiving, and in turn, disseminating real 
time data. Could you discuss some of NOAA's current 
capabilities in real time monitoring, and the potential use of 
improved technologies?
    Dr. Koblinsky. Certainly. The variety of observing networks 
that NOAA has range from ground observations, ocean 
observations, and satellite observations, as you are well 
aware. Most particular to the drought, it may surprise you that 
the Ocean Observing System is actually playing a very important 
role. We have had a great deal of success in our research 
demonstrating the impact of ocean surface temperatures, 
especially in the tropical belt, even over to the Indian Ocean, 
on the transport of water vapor transports that come into North 
America, where they come, and when they come, and so, observing 
systems in the ocean have actually provided a lot of valuable 
information, and are continuing to do so, and we are grateful 
for your support for helping us develop a Global Ocean 
Observing System in partnership with international partners.
    On the ground system, we have got an observing system, the 
cooperative observing system, that measures temperature and 
precipitation, and provides information, some of it in real 
time, that is used by our operators. We have a dearth of soil 
moisture sensors, and that has been recognized in the NIDIS 
plan overall--a need to add soil moisture systems.
    There are concerns about the stream gauging networks, I 
know at USGS and we would like to ensure that those are 
continued, and where needed, ground monitoring networks. We 
need improvement in the real time delivery of that. Those are 
provided through well monitoring by the USGS, again, and so, 
again, the NIDIS plan talks about trying to improve the relay 
of that information, to understand groundwater. Groundwater is 
really something that is not well monitored at this time, 
especially in the last--and we need better coverage there.
    The SNOTEL system that USDA has monitors snowpack, 
coverage, and thickness, has been quite useful, and we would 
certainly like to augment that as much as possible, and make 
sure that has real time capability, but we do have current 
capability there, and NASA research satellites are providing 
snow coverage and snow depth information that would continue 
into the NPOESS era, we hope, as well.
    So, in summary, that is a quick panoply, if you will, of a 
cross. I think that a big frontier, also, in the future, would 
be to improve precipitation monitoring directly, and certainly, 
the success of the Tropical Rainfall Mapping Mission within 
NASA has been successful, and we would like to see that 
continued with the Global Precipitation Mapping Mission that 
NASA, NOAA, and other agencies have been talking about.
    Thank you.
    Mr. Udall. Thank you.
    Chairman Ehlers. The gentleman's time has expired. We are 
now pleased to recognize Dr. Schwarz.
    Mr. Schwarz. Thank you very much, gentlemen, for being 
here. I am from Michigan, in fact, Dr. Ehlers' district and 
mine abut each other, so we do not have the wide vicissitudes 
in rainfall, and the results of same that your parts of the 
country do. However, I am a property owner in western Montana, 
and we do, out there, so I have some interest in this.
    One of the things that, and anyone can answer this, I think 
Dr. Koblinsky, this is probably going to be in your ballpark, 
but one of the things that my friends and neighbors in Montana 
talk about, is they look at reservoir levels, they look at 
snowpack, they look at rainfall, they look at the disastrous 
fires they have had in the past decade. One of the things that 
they believe, whether it is true or not, is that we believed, 
at least for the last several decades, maybe more than that, 
that this country was wetter than it really is, over a much 
longer period of time, over perhaps the last three or four or 
five centuries.
    So, the first question is, have we lived, in the last 60 to 
100 years, or maybe more, 150 years, in an era that was 
significantly more wet, significantly more rainfall and 
snowpack, than say, the previous couple of centuries. And are 
we paying the price for that now, on making some assumptions 
that, in places like Texas or eastern Colorado, or Nebraska, or 
eastern Montana, it was going to be wetter than it is, and 
agriculture would be a lot more successful than it has been, 
and there would not be these wide swings in rainfall, and the 
resultant droughts that we are seeing now. Were we off on what 
we thought the real norm of climate is in this part of the 
world, in our continent?
    Dr. Koblinsky. Well, we have mentioned in many of our 
written testimonies that drought is a natural occurring 
feature, and as you mentioned, if you look back in the record, 
over the past even thousand years, now, from tree ring records, 
there have been times when droughts were far more severe and 
long-lasting, and we know those examples. In the current 
century, there is really no trend in precipitation across the 
Nation, but we know from looking at long-term levels in the 
reservoirs that you mentioned that, for example, the early part 
of the century had a lot of water, and there was some concern 
that perhaps, the Colorado Compact, for example, was negotiated 
in a time of plenty, whereas now, in the past, at least the 
past decade, that dryer conditions have existed, so it has made 
the use of that Compact a little bit more complicated.
    But in general, I don't think, Representative, we have seen 
any trend, necessarily, in either drought intensity or drought 
frequency. There have been trends in the release of the 
snowpack, and the time of release in the water, especially in 
the western mountains in the Cascades and Sierras, that have 
been documented over the last thirty years, and there has been 
some link to that to the long-term temperature rise that we are 
seeing in North America.
    But no, no, at this time, I am not aware of any trend 
across the continent, in terms of precipitation. It seems to be 
in a steady fashion.
    Mr. Schwarz. Going forward, then, and briefly. Is the 
technology available now, if we set up a NIDIS, is the 
technology available, that we can be considered reliable 
technology, where trends are predictable, and we can predict 
drought, as well as deluge?
    Dr. Koblinsky. Predicting precipitation has remained an 
incredible challenge for our forecasters. There are some very 
interesting breakthroughs, in terms of understanding the 
relationship between major climate events, like El Nino, and La 
Nina, and certain regions of North America. For example, in La 
Nina conditions, we came out, we are just coming out of a 
modest La Nina condition now, tends to mean wet in the Pacific 
Northwest, and dry in the Southwest and Southeast, and those 
are the conditions we are seeing now. El Nino conditions 
reverse that. You tend to have dryer conditions in the 
Northwest and wetter conditions in the Southeast, Southwest. 
And so, that is being utilized as much as possible, to try and 
provide information to various communities.
    There is a tool that our Southeast consortium of 
universities has, that we support, has provided, called Ag 
Climate, that ties into that research, and tries to provide 
that information to farmers on the ground.
    In terms of the much longer term sense of what is 
happening, I refer to some of the observed trends in 
temperature, and observed trends in snowpack release. If the 
warming trend continues, as the models are suggesting 
throughout this century, what it suggests are that the main 
atmospheric systems might move northward, and that the storm 
patterns would move northward, so if that comes to be, you 
might expect influences of more dryer conditions in the 
southern part of the country towards the end of the century 
than we currently see.
    Mr. Schwarz. Thank you, sir. Thank you, Mr. Chairman.
    Chairman Ehlers. Next, I am pleased to recognize Mr. 
Matheson for five minutes.

                 Implementation and the Future (cont.)

    Mr. Matheson. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I wanted to reference--I direct this towards Dr. Koblinsky. 
I was very pleased to see that H.R. 5136 requires the Under 
Secretary of Commerce for Oceans and Atmosphere to consult with 
relevant Federal, regional, State, tribal, local government 
agencies, research institutions, and the private sector, in the 
development of the National Integrated Drought Information 
System. That is the quote from the bill.
    In my home State of Utah, we have a lot of local expertise, 
which I believe could help in developing the comprehensive and 
user-friendly drought information system. As an example, Utah 
State University has a climate center that is an institution 
that facilitates access to climate data in Utah, and it tries 
to develop products to benefit both public and local government 
agencies, and our ag extension system could be an important 
part in providing information and educational programs to help 
the public prepare for drought-related emergencies, cope with 
impacts of drought, and mitigate the effects of drought.
    I was just wondering, the question for you, Dr. Koblinsky 
is, will the Under Secretary ensure that groups like these in 
Utah, and quite frankly, others that I am sure are all across 
the country, be consulted and have an avenue to express their 
thoughts and contributions to the development of the National 
Drought Information System?
    Dr. Koblinsky. Thank you for your question, Representative 
Matheson.
    I have felt that is a major challenge for me, as the one 
who the Under Secretary has asked to take a leadership role in 
developing NIDIS, and I have been very active the past few 
months trying to engage many of these different communities, 
and received tremendous enthusiasm for them to be engaged, 
though, for example, we plan on having what we are calling an 
interim steering group meeting the first part of June, which 
would include a number of federal agency representatives, the 
U.S. Department of Agriculture, the Department of Interior, 
NASA, as well as NOAA, in addition to the other elements that 
you talked about, State representatives and regional 
representatives, university representatives, and private 
sector, to talk about how we could move forward and draft an 
implementation plan for NIDIS that would represent all of these 
communities, and their needs for NIDIS, as well as their 
interest in helping us develop this system.
    And then, as I mentioned earlier, to bring that forward, to 
essentially, an all comers meeting of interested parties in the 
fall, to really engage in an open and transparent process, as 
we like to say, with all these communities. And then, I hope, 
as I mentioned earlier, that we can begin to evaluate as the 
system moves ahead, how well we are doing on that, and get 
feedback from the system to do the best we can.
    Mr. Matheson. I appreciate that. Let me ask you, NOAA has 
already worked on a plan to develop this system, how long do 
you think it will take to fully develop and implement a really 
comprehensive system that we envision by doing this? If this 
bill gets passed, what do you think the timeline is?
    Dr. Koblinsky. Perhaps you weren't here earlier, and I 
talked about----
    Mr. Matheson. Sorry about that.
    Dr. Koblinsky.--this in my oral testimony.
    Mr. Matheson. Sure.
    Dr. Koblinsky. And let me just repeat it briefly. That what 
we sense now is a great desire on a number of States' parts to 
carry out pilot programs, and we would, in addition to 
augmenting the observing system and the data components of 
that, we would see that the initial stage of this would take 
place in pilots, to really learn by doing, essentially, and 
then to translate into a national, a fully national system, we 
think it can be done over the next five to six years, if 
properly appropriated, and then, fully implemented on a 
national basis.
    Mr. Matheson. And as you also probably know, the bill 
directs NIDIS to include products that reflect local, regional, 
and State differences in drought conditions, and, I am sure you 
know, more interface between the scientists that collect 
information and the users that need the data, is going to make 
this information more relevant.
    How does NOAA identify the user groups for these products, 
and how does NOAA identify the parameters of particular 
importance to users and organizations that rely on NOAA for 
drought information?
    Dr. Koblinsky. Thank you. We have a number of mechanisms 
within NOAA, and certainly, I think, one of the beauties of 
NIDIS is and we are able to tap in to all the other agency 
interests and state interests as well, but we have research 
mechanisms that look at, from both the sector and regional 
basis. We have regional Centers of Excellence at universities. 
We have a number of operational centers. The National Weather 
Service, for example, has 120 local forecast offices around the 
country, as well as, you know, because Salt Lake City hosts the 
Western Regional Office, eight regional offices for the Weather 
Service, as well as coastal offices, et cetera. And so, we 
would see work on developing feedback mechanisms from these 
communities, utilizing not only the NOAA infrastructure and 
research entities, but also, state, regional, and local 
entities that you have talked about, as well.
    I have an invitation to talk, for example, with the U.S. 
Conference of Mayors, coming up in a few months, and look 
forward to that to tap into the urban sector, as well.
    Thank you.
    Mr. Matheson. Thank you for your answers, and Mr. Chairman, 
I will yield back.

                           Technology (cont.)

    Chairman Ehlers. Thank you, and for final wrap-up question.
    Dr. Koblinsky, in your testimony, you mentioned that NOAA's 
next generation of polar orbiting weather satellites, the 
NPOESS system, will contain--will continue important drought 
monitoring capabilities. Can you tell us specifically which 
sensors on NPOESS will provide the drought monitoring 
capability?
    Dr. Koblinsky. Yes, sir. As I have mentioned, important 
variables to monitor drought are such things as land 
conditions, land temperatures, snow cover, snow depth, ocean 
conditions, ocean temperatures, and the like, vegetation 
indices, for example. So, the key sensors on NPOESS would be 
the Visible and Infrared Imager and Radiometer Suite, what is 
called the VIIRS instrument, which augments the current optical 
and infrared sensors that are on the POES satellites, utilizing 
the capabilities that were developed in NASA for what is called 
the MODIS or medium optical sensor, that is flying on the Terra 
and Aqua satellites.
    And that would provide useful information. It is an 
optical, or near infrared sensor, so temperatures, snow cover, 
some ocean surface temperature conditions, and the like. And 
then, the other critical sensor, I think, is the Conical 
Microwave Imaging Scanner, imager and scanner, and it allows us 
to see through clouds, so again, enhancing sea surface 
temperature measurements, improving snow measurements for both 
snow cover and snow depth, land surface temperature conditions, 
also being sound, providing sound information, so for 
precipitable water in the atmosphere, moisture in the 
atmosphere, temperature in the atmosphere, so we can trace some 
of these water vapor jets as they come off the ocean.
    And then, finally, but less so, probably, is the infrared 
sounding instrument that would be useful, of course, for 
weather prediction, for moisture and temperature profiles 
through the atmosphere and pressure. I think those are really 
the three key measurement systems that are on NPOESS that would 
be most valuable for drought.
    Chairman Ehlers. Well, as you probably know, this committee 
has been very concerned about the fact that the NPOESS project 
is currently a billion dollars over budget, and three years, as 
much as three years too late. Our concern is that some sensors 
may be dropped from this project, and I hope that is not a real 
danger, but we are very concerned about it. If sensors are 
dropped, are they likely to drop any of the sensors that you 
would need to provide your drought information?
    Dr. Koblinsky. Well, I certainly hope not. As you know, 
this is proprietary information right now, because the 
discussions for the Nunn-McCurdy response, and we are trying to 
actively lobby, or argue for the need for these particular 
sensors for continuation.
    Chairman Ehlers. And this committee will be certainly 
joining in that fight, if it becomes necessary, because it 
seems silly to spend all that money to put the satellite up, 
and then not put all the sensors on that we really need.
    Dr. Koblinsky. Appreciate your support, Representative.
    Chairman Ehlers. Thank you for your comments on that.
    I wanted to thank the entire panel. You are very good. I 
appreciated your comments. Your answers to the questions have 
been extremely helpful to us, and frankly, you have brought 
life to a rather dry subject.
    The staff is going to give me trouble about that, because 
they always object to my dry humor, and I have tried to 
restrain myself today.
    I do want to mention just one thing. I think it was Mr. 
Smith mentioned, the State Water Management Plan that you have 
developed, and I hope all States are doing that, looking hard 
at it, and communicating the information to the public.
    I find it amusing, I am an environmentalist and 
conservationist, have been for years, and I am getting into 
trouble in the past year for advocating the use of waterless 
urinals. Now, as you know, the press gets obsessed with 
anything relating to normal bodily functions, and so, I have 
been castigated nationwide, including USA Today, because this 
was put on the pork list. I didn't realize water conservation 
was related to pork.
    But in any event, it has been very interesting to me, 
because it is good for the environment. Each urinal saves, on 
average, 45,000 gallons of water a year. My effort was to get 
the Navy to use them. The Army is already using them, and the 
Army reports at one base, they are saving $10.2 million per 
year on water, and another base, they put it in just one 
building, and they are saving several--have saved several 
hundred thousand already.
    I just hope the public takes this to heart, and while they 
are spending $8 billion, it is now up to $10 billion a year on 
bottled water, they are flushing away much more than that. And 
there are many, many ways we can conserve in addition to that. 
So, I hope the word gets out there, and I hope the public 
begins to cooperate. As I said, it is not crucial in my state, 
but we are doing quite a bit, and I hope every state takes it 
to heart, and does that.
    Thank you again for being here. The plan is to close out 
this hearing, and immediately go into a markup to report out 
this bill to the Full Committee, which will consider it, I 
hope, later this month.
    So, before we close it out, I want to thank you once again 
for your testimony, and for helping us out in this way. It has 
been highly educational, and it has been a major help to us.
    If there is no objection, the record will remain open for 
additional statements from the Members, and for answer to any 
followup questions the Committee may ask of the witnesses in 
writing.
    Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee proceeded to 
other business.]

                                   

</pre></body></html>
